1
*

ii''

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)
vs.

Kelly Harrigan, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the Virgin Islands
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

APPENDIX TO THE PETITION FOR A WRIT OF CERTIORARI
Calvin Gumbs, II
(Your Name)

Post Office Box 12013
(Address)

Saint Thomas, VI (US Virgin Islands) 00801
(City, State, Zip Code)
fUn) 79S-4SSK
(Phone Number)

-OH

(340)227 - 5621

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)
vs.

Kelly Harrigan, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the Virgin Islands
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
APPENDIX A
ORDER OF THE SUPREME COURT OF THE VIRGIN ISLANDS

Calvin Gumbs, II
(Your Name)

Post Office Box 12013
(Address)

Saint Thomas, VI (US Virgin Islands) 00801
(City, State, Zip Code)

(740)775-4S5R nr (140) 227 - 5621
(Phone Number)

(*FIiESOTeiE(tot1£ir
of mi si tsu-Vts.

FILED

IN THE SUPREME COURT OF THE VIRGIN ISLANDS

March 05, 2021
SCT-CIV-2020-0041
5O05TOrr^m'.RSi5aRiv
ae«KflnTiir.a5Ginr

S. Ct. Civ. No. 2020-0041
Re: Super. Ct. Civ.No. 342/2017 (STT)

CALVIN GUMBS, II
Appellant/Plaintiff,
v.
KELLY HARRIGAN, TINA M. KOOPMANS,
UNIVERSITY OF THE VIRGIN ISLANDS and
HONORABLE HARRY V. CARR III,
MAGISTRATE, SUPERIOR COURT OF THE
VIRGIN ISLANDS, SMALL CLAIMS
DIVISION,
Appellees/Defendants.

On Appeal from the Superior Court of the Virgin Islands

ORDER
THIS MATTER is before the Court on the parties’ responses to this Court’s July 31, 2020
order requiring the parties to address whether this Court has jurisdiction over this appeal. Also
before the Court is a motion to dismiss filed by Appellee University of the Virgin Islands, which
also requests that this appeal be dismissed for lack of jurisdiction.
Pursuant to the Revised Organic Act of 1954, this Court has appellate jurisdiction over “all
appeals from the decisions of the courts of the Virgin Islands established by local law[.]” 48 U.S.C.
§ 1613a(d). Title 4, section 32(a) of the Virgin Islands Code vests this Court with jurisdiction over
“all appeals arising from final judgments, final decrees, [and] final orders of the Superior Court.”
In the July 31, 2020 order, this Court noted that although the February 27, 2020 order which
Appellant has appealed from dismisses Appellant’s case against the Honorable Henry V. Carr, III
and the Superior Court of the Virgin Islands with prejudice, it appears that Appellant’s claims
against Tina Koopmans, Kelly Harrigan and University of the Virgin Islands remain pending.
Although Appellant states in his response that this Court has jurisdiction pursuant to section 32(a),

Ao t

Gumbs, II v. Harrigan et ah
S. Ct. Civ. No. 2020-0041
Order
Page 2 of 2
he does not explain how the February 27, 2020 order meets the definition of finality where claims
against three defendants have not been resolved. And Appellant does not present—nor can the
Court find—any other legal grounds to support its appellate jurisdiction over this matter.
Accordingly, the premises having been duly considered, it is hereby
ORDERED that Appellee’s Motion to Dismiss is GRANTED; and it is further
ORDERED that this appeal is DISMISSED FOR LACK OF JURISDICTION; and it
is further
ORDERED that copies of this Order shall be distributed to the parties
SO ORDERED this 5th day of January, 2021

Is! Rhys S. Hodge
RHYS S. HODGE
Chief Justice
ATTEST:
VERONICA J. HANDY, ESQ.
Clerk of the Court
By:

/s/Natasha Illis
Deputy Clerk II

Dated: March 5, 2021
Copies to:
Justices of the Supreme Court
The Honorable Douglas A. Brady, Superior Court Judge
Calvin Gumbs, II, pro se
Samuel H. Hall, Jr., Esq.
Marie E. Thomas-Griffith, Esq.
Paul L. Gimenez, Esq.
Veronica J. Handy, Esq., Clerk of the Supreme Court
Tamara Charles, Clerk of the Superior Court
Supreme Court Law Clerks
Supreme Court Secretaries
Order Book

A02

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)

vs.
Kelly Harrigan, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the Virgin Islands
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
APPENDIX B
ORDER OF THE SUPERIOR COURT OF THE VIRGIN ISLANDS

Calvin Gumbs, II
(Your Name)

Post Office Box 12013
(Address)

Saint Thomas, VI (US Virgin Islands) 00801
(City, State, Zip Code)
(340) 79S-4SSK
(Phone Number)

.ot

(340) 227-5621

WTHE«?CPH?T?m.ccJCErr
aetBGmaxmjvm
IN THE SUPERIOR COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN
CALVIN GUMBS, II,
Plaintiff,
vs.

TINA M. KOOPMANS, KELLY HARRIGAN,
UNIVERSITY OF THE VIRGIN ISLANDS,
HENRY V. CARR, III, (Magistrate), SUPERIOR
COURT OF THE VIRGIN ISLANDS,
(Small Claims Division),
Defendants.

)
)
)
)
)
)
)
)

)
)
)
)
)
)

FILED*

fsbraarf 29, 2023
M*R*Ca**ILE!5
Ct.ERKlJFTiTECCJCS.ir

CIVIL CASE NO. ST-17ACTION FOR FRAUD/
MISREPRESENTATION; BREACH
OF CONTRACT/CONTRACTUAL
OBLIGATION; CONSPIRACY TO
COMMIT FRAUD; CONDUCT
UNBECOMING (PROFESSIONAL/
JUDICIAL).

ORDER
Plaintiffs pro se Complaint was filed July 31,2017 and represents at least the fourth separate
action that Plaintiff has commenced relating to an incident that occurred in or about June 2014
involving two employees of the University of the Virgin Islands (“UVI”) relative to Plaintiff s
privileges at the University library. He seeks damages in the amount of $30,000,000 against UVI; its
employees Tina M. Koopmans and Kelly Harrigan; Hon, Henry V. Carr, III, Magistrate Judge of the
Superior Court, to whom Small Claims action ST-15-SM-522 was assigned; and the Superior Court
of the Virgin Islands, Small Claims Division. i
Plaintiffs Complaint alleges breach of contract against the UVI Defendants, apparently
relating to the failure of those parties to comply with the terms of an agreed settlement in the Small
Claims action. The Complaint seeks damages against Defendants Carr and Superior Court for
“conduct unbecoming a professional judicial authority.” Apparently, all of the Defendants are alleged
to have damaged Plaintiff by an undefined and unexplained “conspiracy to commit fraud.”
Before the Court is the Motion of Defendants Carr and Superior Court to Quash Summons
and Dismiss Complaint, filed January II, 2018. Plaintiffs Response was filed April 24, 2018. The
moving, Defendants filed their Motion for a Ruling June 17, 2019. Defendants Carr and Superior
Court argue that the Small Claims Division of the Superior Court is not an entity which' may be sued;
that service of process against these Defendants was defective; and that claims against both these
Defendants are barred by sovereign immunity and judicial immunity.
In an action brought against the Superior Court, the District Court of the Virgin Islands held
that “[tjhere can be but one Government of the Virgin Islands. It is comprised of three separate and
coequal branches - the Executive, Legislative, and Judiciary,” rejecting the proposition that rather
than the central Government “every component branch, agency, and perhaps each and every person
which compose a Government must be sued individually and separately.” Kendall v. Superior Court
1 In his Response to the present Motion of Defendants Carr and Superior Court, Plaintiff states that he
“did NOT name die Superior Court as a Defendant of any sort” and that “only the Small Claims Division is
on this claim, not the entire Superior Court.” (Response, at 4, 5; emphasis in original).

601

Order
Gumbsv. Koopmans, et al, ST-17-CV-342
Page 2 of 3

of the V.I., 2013 U.S. Dist. LEXIS 27320, at *16 (D.V.L 2013), citing Section 2(b) of the Revised
Organic Act of 1954 (48 U.S.C. § 1541(b)). See also Juan F. Luis Hosp. & Med Ctr. & Gov'/ ofthe
VI. v. Titan Med Group, LLC, 69 V.I. 873 (V.I. 2018).
The Small Claims Division ofthe Superior Court and, for that matter, the Superior Court itself,
is, not an entity that may be independently sued. Granting leeway to a pro se litigant does not extend
to the Court’s reformation of defective pleadings to correctly identify and include in the action a party
not sued. Additionally, Plaintiff has not effectuated service of process against the Superior Court or
the Small Claims Division. Plaintiffwas granted leave to proceed informa pauperis, by which officers
of the Court shall issue and serve process. (4 V.LC. § 513). However, the burden is neither on the
Court nor its officers to correctly identify and determine the proper agents for service of process for
a pro se litigant. In this action, Plaintiff directed the Virgin Islands Marshal to serve the judicial
secretary to Magistrate Judge Carr, identifying her as “Resident Agent for Small Claims* Superior
Court ofthe VI.” No other service was attempted or accomplished as to the institutional governmental
Defendant, whether the Small Claims Division, the Superior Court or the Government of the Virgin
Islands. Although the issue of inadequate service of process was presented in Defendants’ Motion,
Plaintiff has not sought leave for additional time to properly effectuate service of his Complaint filed
two and a half years ago. Accordingly, the action is subject to dismissal as to the Superior Court for
failure of service of process pursuant to V.I. R. Civ. P. 4(i).
To the extent that a viable claim could be presented against the Superior Court (or the
Government of the Virgin Islands), such a claim would sound in tort. Plaintiff has not alleged that he
has complied with the provisions of the Tort Claims Act as outlined in Title 3 3 Chapter 118 of the
Virgin Islands Code. Specifically, the waiver of sovereign immunity by the Government of the Virgin
Islands is conditioned upon compliance by a claimant with the timing and filing provisions set forth
in the Act For this reason also, this Court may not entertain Plaintiffs action against the Superior
Court (or the Government of the Virgin Islands).
Further, all allegations relative to Magistrate Judge Carr arise exclusively from actions taken
in his capacity as a sitting judicial officer. Plaintiff has not presented an appeal claiming error in any
ruling of the Magistrate Division, but rather presents a claim for damages, alleging “conduct
unbecoming a professional judicial authority.”
The doctrine ofjudicial immunity is unquestioned and well-established. “A long line of this
Court’s precedents acknowledges that, generally, a judge is immune from a suit for money damages.
See, e. g, Forrester v. White, 484 U.S. 219 (1988); Cleavinger v. Saxner, 474 U.S. 193
(1985); Dennis v. Sparks, 449 U.S. 24 (1980); Supreme Court ofVa. v. Consumers Union of United
States, Inc., 446 U.S. 719 (1980); Butzv. Economou, 438 U.S. 478 (1978); Stump v. Sparkman, 435
U.S. 349 (1978); Pierson v. Ray, 386 U.S. 547 (1967). Although unfairness and injustice to a litigant
may result on occasion, "it is a general principle ofthe highest importance to the proper administration
ofjustice that a judicial officer, in exercising the authority vested in him, shall be free to act upon his
own convictions, without apprehension of personal consequences to himself.’” Mireles v. Waco, 502
U.S, 9, 9-10 (1991) (quoting Bradley v. Fisher, 80 U.S. 335,347 (1872)).

B02.

Order
Gumbs v. Koopmans, et al, ST-17-CV-342
Page 3 off 3

Here, Plaintiff’s claims against Magistrate Judge Carr must fail as all actions of which Plaintiff
complains were taken in the context of the Magistrate Judge’s exercise of the authority vested in him
as a judicial officer of the Superior Court.
For the reasons stated herein, the Motion of Defendants Carr and Superior Court will be
granted, and Plaintiffs Complaint against those Defendants will be dismissed1 with prejudice.
As to the other parties, Plaintiff advises in his Response to the Motion of Defendants Carr and
Superior Court that Defendant Tina M. Koopmans died in the same month that Plaintiff filed this
action.. More than two years have passed since Defendant Koopmans’ death, but no party has moved
to substitute a personal representative of that Defendant within the time permitted by 5 V.I.C § 78.
Additionally, neither the Court’s electronic docket nor its paper file reflects service of process
against Defendant Koopmans, Defendant Kelly Harrigan or Defendant UV1. In light of the foregoing,
it is hereby
ORDERED that the Motion to Quash Summons and Dismiss Complaint of Defendants Henry
V. Carr, III and the Superior Court of the Virgin Islands is GRANTED, and Summonses issued
August 7, 2014 to “Ms. La Star (or La Starr) Watley, Resident Agent for Small Claims, Superior
Court of the VI” and to “Mr. Henry V. Carr, III, Magistrate” are QUASHED. It is further
ORDERED that Plaintiff s Complaint against Defendant Henry V. Carr, III and against
Defendant Superior Court of the Virgin Islands is DISMISSED with prejudice. It is further
ORDERED that, within 30 days of the date of entry of this Order, Plaintiff shall show cause,
in writing, why his Complaint against Defendant Tina M. Koopmans, deceased, should not be
dismissed. It is further
ORDERED that, within 30 days of the date of entry of this Order, Plaintiff shall subm it proof
of service of process against Defendants Tina M. Koopmans, Kelly Harrigan and the University of
the Virgin Islands; failing which Plaintiff, within the same time period, shall show cause why the
Complaint should not be dismissed for failure of service of process as to those Defendants.

DATED: February

2£ 2020.

ATTEST: TAMARA CHARLES
Clerk of the Court

Distribution List
Calvin Gumbs, II,pro se
Pauli Gimenez, Esq.,

B03

STT

"TO*
RETURN OF SERVICE

W)

*

2020 MAR 7^ PH l?: 07

IN THE SUPERIOR COURT OF THE VIRGIN ISLANDS

ro

O'-

..

District of St. Thomas/St. John

"T \

p"

;n

c. •
"0

Case Number: ST-2017-C-V-00342 rn
c..:

v?

O

To be served on: CALVIN GUMBS, II
Address: #394A-10 ANNA’S RETREAT, UNIT 3, ST. THOMAS, VI
Phone No:

(404)890-6085

I hereby certify that I received a certified copy of the Order dated February 27, 2020 in the case
of CALVIN GUMBS v. TINA M. KOOPMANS et al
on the
on the

OH

on

by delivering to

day of Y

and that thereafter

day of\V\£)v

0a\O\V\ C

and that thereafter

Al

the said certified copy.

Dated: February 29, 2020

YY\T* Co^xw^cSSi

larsha!

la
o

\

c
7

604

Deputy

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)

vs.

Kelly Harrigan, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the Virgin Islands
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

APPENDIX C
ORDER of the SUPERIOR COURT of the VIRGIN ISLANDS, SMALL CLAIMS DIVISION
Calvin Gumbs, II
(Your Name)

Post Office Box 12013
(Address)

Saint Thomas, VI (US Virgin Islands) 00801
(City, State, Zip Code)

(340)79S — 4SS8
(Phone Number)

-Or

(340) 227-5621

IN THE SUPERIOR COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN
CALVIN GUMBS,

) SMALL CLAIMS NO. ST-15-SM-522
Plaintiff,

vs.
TINA KOOPMANS, KELLY HARRIGAN
AND THE UNIVERSITY OF THE VIRGIN
ISLANDS,
Defendants.

)
)
)
)
)

ACTION FOR DEBT

)
)
)
)
)

ORDER
On November 3, 2015, Plaintiff Calvin Gumbs filed a complaint in the Small Claims Division of
the Superior Court of the Virgin Islands against Defendants Tina Koopmans, Kelly Harrigan and the
University of the Virgin Islands (“UVI”). He seeks damages in the amount of $9,995.00: $263.70 in
general damages and $9,731.30 in punitive damages, plus a request for a public apology from UVI. He
also seeks waiver of the court’s filing fees by requesting to proceed in forma paperis under 4 V.I.C.
§513.
On May 6, 2015, Plaintiff filed his first small claims complaint against UVI and Kelly Harrigan
in Case No. ST-15-SM-202. UVI and Kelly Harrigan are two of the three Defendants in the instant
matter.1 In his May 6,2015 complaint, Plaintiff sought damages in the amount of $10,000.00: $263.70
in general damages, $9,721.30 in punitives and $15.00 for a membership fee due every December 9,
2015, plus court courts. He also filed an application to proceed in forma paperis, which the Court
granted.2
In ST-15-SM-202, while the Court had great difficulty in understanding the claim(s) Plaintiff set
forth in his complaint, Plaintiff appeared to have alleged that he had some unidentified “community
borrower account” that may have or not involved UVI; that $236.70 was in his account and was missing;
that he confronted and questioned Defendant Kelly Harrigan about the missing funds; and that she felt
threatened and frightened, which caused her to call UVI security to escort him off the UVI premises,
which security did. All of these events he alleges occurred on June 4, 2015. Plaintiff may have alleged
a claim of theft of money involving his account and claims of false imprisonment or arrest involving his
removal from UVI premises. He attached a 2 Vi typed letter which provided more factual details
concerning his claim.
Based on Plaintiffs complaints filed May 6 and November 3, 2015 and the mediation which occurred on August 19, 2015
infra, Defendants Kelly Harrigan and Tina Koopmans are employed by Defendant the University of the Virgin tslands and in
ail instances were acting in the scope of their employment.
2 See Case No. ST-15-SM 202, Court Order dated May 21,2015.

coi

— Ortier
Gumbs v. UVI, Koopmans and Harrigan
ST-15-SM-522
Page 2 of 3
The case of ST-15-SM-202 was scheduled for trial before this Magistrate Judge on August 19,
2015. Consistent with Superior Court Rule 64, the parties met with his law clerk to seek whether the
parties could amicably resolve this dispute through conciliation. The parties involved in this mediation
forum were Defendants Tina Koppmans, Vice President of Information Services and Institutional
Assessment on behalf of UVI; Theodore Glasford, Chief of Security on behalf of UVI; and Kelly
Harrigan, Director of School and Medicine of UVI. After the parties met and mediated, they all
appeared before this Court and stated on the record that this matter had been settled. The settlement was
that the UVI would provide a written apology to Plaintiff before August 31, 2015 and would enclose
$50.00 to be used with regard to his user account at the library. PlaintifT agreed that this was the
settlement between the parties and had no objections to the Court dismissing ST-15-SM-202 with
prejudice. The entire proceeding before the Court took 3 minutes.
In this case, Plaintiff claims that Kelly Harrigan presented him with a document showing a
deposit of $1,100.00; that Tina Koopmans said that she would reimburse him the said $263.70 if he
would admit to a $1,100.00 deposit; and that when he finally recognized that document, it was a deposit
of $1,105.00. He claims that these individuals “lied” to him and took “advantage of his disability”. The
Court does not know the exact nature of his disability, although he did mention in his complaint that he
had an eye condition which caused him not to see the correct figure for the deposit.
The Court now repeats Plaintiffs prayer for relief: “the original $263.70 damage, plus $9731.30
punitive damage and the public apology that was owed to [him].” In his 1 'A typed statement, Plaintiff
admits that he received a letter from UVI posted-marked September 1, 2015. He states that while “the
first paragraph of this letter . . . resembled an apology”, “the remainder did as much to not take
responsibility for the actions that occurred on June 4,2013.”
In neither his complaint nor typed statement did Plaintiff make any mention of receipt of the
$50.00, although the letter he refers to as not an “apology” was among his attachments to his typed
statement. That letter was dated August 31, 2015 from Tina M. Koopmans, Vice President of
Information Services and Institutional Assessments, on behalf of UVI. Her letter enclosed a full refund
check of $50.00. Nonetheless, Plaintiff does not inform the Court, in his complaint or any of the
attachments, as to whether he received this refund.
This Court must dismiss with prejudice this small claims complaint in Case No. ST-15-SM-522.
First, this issue over the “Community Borrower’s membership” account in which Plaintiff claims he had
$236.70 was dismissed by the court with prejudice, pursuant to a settlement agreement, in ST-15-SM202, two months ago. Dismissal with prejudice means that Plaintiff is forever barred from re-filing the
same action again.

3 The Court determined that PlaintifT appeared to be extremely pleased with the settlement if not downright joyful.
PlaintifT claims that this Court’s law clerk represented to him that dismissal with prejudice means that '‘the issue can be
revisited if the settlement was not what was agreed upon.” While the Court does not believe that his law clerk made any such
representation to him, this matter is immaterial in its determination that this case must be dismissed.

CO 2

Orticr
Gumbs v. UVI, Koopmans and Harrigan
ST-15-SM-522
Page 3 of 3
Second, Plaintiff has alleged no cognizable claims against Defendants for which relifef can be
granted.5 Construing his complaint with all his attachments this Court still cannot find any claim that
would merit scheduling a hearing. Plaintiff does not even allege non-receipt of the $50.00 that was paid
to him to settle the first small claims matter. The Court does not find any alleged facts in Plaintiffs
complaint and statement sufficient to suggest the required element of any cause of action known to the
Court.6 As to the public apology, Tina K. Koopmans states in the first page of her August 31, 2015
letter to Plaintiff: “I am sorry you were placed in a situation where you felt accused and disrespected.”
What more could Plaintiff ask for from Ms. Koopmans? The Court finds the statement “I am sorry”
sufficient to convey an apology. This Court will not allow Plaintiff to inconvenience Defendants by
forcing them to return to court to deal with the same matter that was settled and dismissed in ST-15-SM202.
Third, the bulk of his claim is for punitive damages. Plaintiff has not alleged any acts by
Defendants in his complaint that can be construed, in the light most favorable to him, to be intentional,
spiteful, willful, wanton or reckless that would merit an award of punitive damages to punish the
offender for engaging in same.
Based upon the foregoing, it is hereby
ORDERED, that Plaintiffs complaint is DISMISSED WITH PREJUDICE: and it is further
ORDERED, that Plaintiffs motion to proceed informa pauperis is DENIED; and it fs further
ORDERED, that copies of this Order shall be directed to th<
DATED: Novermber

3

2015
HENRY V. CARR, III
Magistrate of the Superior Court
of the Virgin Islands

ATTEST:
ESTRELlftt H. GEORGE
Acting;
sfte Court
By:
sfiior Deputy Clerk // / *9
m INTJtM. LOCKHART,
4*

5 The Cou;Tt swogm'zes that’**all pleadings shall be so construed as to do substantial justice'1 under small claims Rule 62(c) of
the SupehoirCourt. However, even after construing his pleadings liberally in favor of a pro se litigant in small claims.
Plaintiff fails to state any claim under the pleadings standards set forth by the Virgin Islands Supreme Court in Aileyne v.
Diageo VSV1. Inc.. 2015 V.L LEXIS 110 (2015) to avoid dismissal. See also Brady v. Cintron, 55 V.I. 802, 822 (V.L 2011).
(The Supreme Court of the Virgin Islands has explained that “a claim requires a complaint with enough factual matter (taken
as true) to suggest the required element."). Failure to meet this pleading standard allows a court to dismiss the complaint.
Joseph v. Bureau of Corrections 54 V.1.644 (2010).

G03

4

it

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)

vs.
Kelly Harrigan, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the Virgin Islands
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

APPENDIX D
Calvin Gumbs, II
(Your Name)

Post Office Box 12013
(Address)

Saint Thomas, VI (US Virgin Islands) 00801
(City, State, Zip Code)

(340)77.5-4^8 or Q40.) 227 - 5621
(Phone Number)

APPENDIX D TABLE OF CONTENTS
Letter to Magistrate Henry V. Carr, III concerning Order from the Superior (Magistrate) Court
D01
Duhaime’s Law Dictionary Definition of Apology,

D05

Envelope of Alleged Apology Letter by Then-Representative of Respondent

D07

Alleged Apology Letter by Then-Representative of Respondent

D08

Statement by Petitioner concerning Alleged Apology Letter by Then-Representative of
Respondent........................................................................................................................

D09

Definition of Coercion

DIO

Post Office Box 12013
Saint Thomas, VI 00801
Composed: November 18th, 2015
Delivered: December 15th, 2015

Superior Court of the Virgin Islands
Attention: Magistrate Henry V. Carr, III
Post Office Box 70
Saint Thomas, VI 00804
Re: The rulings on both cases involved, ST-15-SM-202 and ST-15-SM-522
Magistrate Judge Carr:
First, I would like to take this opportunity to thank you and the court for the time taken to rule on both
cases between myself and various members of the University of the Virgin Islands. It has been both a
duty and a privilege for me to address issues regarding the university's unfair and unprovoked treatment
of me, especially from the incident that took place a year and a half ago. However, I feel the need to
also address some of the discrepancies that were stated on the order for case number ST-15-SM-522
while addressing the other discrepancies that were on said order by the court.
I am not familiar with the court system in the Virgin Islands, nor have I ever been in a Small Claims Court
setting before this year. In fact, it wasn't until the afternoon of November 3rd of this year, in which I was
advised by an Attorney Jeffers, that I have come to find out Small Claims Court was set up as a court to
award monetary damages and, if money was collected, the case would be dismissed without appealing.
The reasons I took UVI to Small Claims Court were to finally address UVI of the false charges laid upon
me (because UVI officials never returned any of my telephone calls to them but one) and all the lawyers
on this island that I contacted (and media relations of radio and television) were urging me to take UVI
to Small Claims Court. Little did I know that these individuals thought of me as being facetious (lacking
serious intent or frivolous) because they didn't think I was worth big money or ratings.
I wanted to address the June 4th, 2014 incident with UVI without going to court, but nobody wanted to
return my calls or talk to me about it. Because I was banned from campus (as stated by the security
chief), I was not going to cause unnecessary drama just by showing up. It may not mean a lot to you or
anyone else, but I gave my life to the Lord over 30 years ago (September 22nd, 1985 to be exact); so I do
not try to lie to, steal from, or provoke others, as UVI has painted quite the picture of me. The money
that UVI took from me was not as important as a public apology that I believe was owed to me after
they went out of their way to attempt to publicly humiliate me by having me escorted off the premises
by three campus security personnel, including the chief.
To get off topic for a moment, the incident did occur on June 4th, 2014, not June 4th, 2015 illustrated on
the last paragraph of the first page of the order that was emailed to me by your court, nor June 4th, 2013
depicted at the end of the third paragraph of the second of three pages. I am stating this so that this
order from court can be accurately processed, so there would be no future discrepancies if the process
were to be revisited or moved further upon.

D01

(Continued page 2)

I truly believe that I needed to present to you facts and occurrences that happened instead of being
speculative as to why this June 2014 event has happened to me. (I now think I should speculate on the
issue, but I will do so toward the end of this letter because the truth needs to be heard now.) From a
very young age, I have come to find that I have something considered as an eidetic memory. I can
visually and accurately describe the events that happened in great detail because I keep reliving the
incident over and over and over. The head trauma I experienced in an accident I had over 20 years ago
only seemed to enhance my recollections of events ever since. I recalled the June 4th, 2014 incident, as
well as the August 19th, 2015 court date that took place 440 days after the incident.
On the June 2014 date, I had a UVI Community Borrower Account that had a final balance of $263.70
(not $236.70 illustrated on the last paragraph of the first page of the order) when I was approached by
Kelly Harrigan. I did not confront and question Kelly Harrigan about the missing funds (as depicted on
same paragraph); I responded to Harrigan after Kelly told me that I did not have a lifetime membership
account, which I did have before the account change. If Kelly Harrigan felt threatened and frightened
(depicted on same paragraph) it did not come across that way as Kelly Harrigan plainly and sternly told
me someone placed thousands of dollars on my account and it will be zeroed out only moments earlier.
The second paragraph of the second page of this court order mentioned a deposit of $1,105.00. Once
again, it was not a deposit of $1,105.00; it was the balance on the account according to the document
given to me by Kelly Harrigan. However, Kelly Harrigan led me to believe that it was a deposit to my
account, and that was when Tina Koopmans chimed in. Regarding the same paragraph, I apologize if I
was not giving the exact nature of my disability. I was diagnosed by my internist/Primary Care Physician
with a form a conjunctivitis that forms a mucus film or lining over my eyes affected by the wind, sun or
other lighting, and dust and causing my eyes (concurrently or one eye at a time) to become irritated and
red, hence the reason for wearing darker protective eye wear. I was also diagnosed in the early summer
of 2009 (this time by an emergency room doctor) with severe atopic dermatitis, which causes my skin to
practically "burn” or form soars when introduced to the sun, sweat, or even stress, hence the reason for
wearing head wear. Since early July 2013,1 have had severe pain in my left leg (no confirmed diagnosis
as of yet) which causes me to not be able to move around a lot. I've also had severe pain in my right
index finger since October of this year which is affecting my ability to write.
On the court date of August 19th, 2015,1 was given the choice of whether to dismiss the case with or
without prejudice. I did not know the difference, so I asked for an explanation. The person you defined
[in the first paragraph of page 2 of the court order] as your law clerk, whom l later came to find out was
Attorney Jeffers, gave an explanation but later told me even if dismissed with prejudice, if the parties
did not follow through with the settlement, the matter can be reopened with another case number. At
that point l told Attorney Jeffers I don't know, you choose (because I did not want to be difficult), at
which point she chose with prejudice. When presented in front of you, I recalled stating to you that I
comply with the agreement (at which point you smiled and responded to me, "You agree with the
agreement?” and I then said I agree with the agreement).
Based on what l was advised by Jeffers, I went along with trying to end this matter amicably. When
speaking with Jeffers on November 3rd, she did not recall if that exactly happened but said she will have
to look back on the files and let me know. She had not contacted me since.

D02

(Continued page 3)

I am not trying to plead ignorance, but I am never afraid to tell anyone whether I know something or I
don't. I am not saying that the first case's dismissal should be altered; I am just trying to understand
why I was told something that was not correct. Attorney Jeffers may not recall what she told me, but,
like I said earlier, l keep reliving incidents over and over. It can be argued that I heard it wrong, but that
just opens up a legal argument for having conversations recorded; if that were the case then the UVI
officials I have met with would be retracting many of their statements (Tina Koopmans even made a sly
comment on the August 19th court appearance about the June 4th incident not being recorded!).
The first paragraph of the last page of the court order makes reference to me not acknowledging $50.00
paid to me to settle the first small claims matter. I will go on the record to state that a check with the
incorrect spelling of my name was given to me, but it was given to me under false pretenses. In a
telephone conversation with Ms. Koopmans on August 21st, 2014, she stated to me that, had she known
I did not receive a notice about the membership change, she would have just given me the $50 refund.
On the August 19th, 2015 court appearance after coming to the settlement of the written apology, I
asked her if she recalled the telephone conversation of a year ago, at which point she said she will
refund my initial membership fee. The $50.00 paid to me had nothing to do with the settlement; what I
requested was that apology, which didn't turn out to be one.
If you are not familiar with what is called dog-whistle strategy, I will explain briefly. When you use a dog
whistle, it has just enough of a pitch so that dogs can hear the sound that is not heard by us. When you
use dog-whistle strategy, it is a subliminal message directed to the individual it is intended to affect,
even though no one else would see or understand it. Ms. Koopmans and I had a telephone conversation
last year when she told me she spoke with Kelly Harrigan about the inappropriate way the June 2014
incident was handled, yet she is stating in the letter as well as during the court appearance that Kelly
Harrigan conducted appropriately, knowing that I vehemently disagreed with that assessment. Ms.
Koopmans mentioned the $50 that had nothing to do with an apology or the settlement. And finally,
she stated that UVI has learned from this incident and will apply when dealing with patrons; however it
was not applied when dealing with me, even after the incident. When I tried to communicate these
with her by telephone (both on September 17th and October 2nd of this year) she wouldn't even return
my calls when I left messages both times. To summarize this paragraph, the Tina Koopmans I spoke
with on August 21st, 2014 is a completely different person from the Tina Koopmans I spoke with on
August 19th, 2015, and I cannot get to speak with any Tina Koopmans ever since.
Judge Carr, I really want to tell you that it was never about the money, even though UVI has continued
to confiscate my $263.70 to this day. The only reason I placed a dollar figure in either case is because
there are certain individuals who will only respond to you if they are threatened with something to lose,
particularly money out of their pockets. I had been trying to communicate with UVI ever since the June
2014 incident and they only decided to acknowledge me when served with subpoenas for the August
2015 court date. From the moment I was accused of these events, I asked for something to show what I
allegedly did, and the first document to show anything was given to me on August 19th, a full 440 days
after the incident, which also raises questions about the credibility of what was given to me. If what was
shown on these documents were the truth, which they're not, why didn't they at least email said
documents to me like the court emailed the court order? UVI had my email address as recent as August
21st, 2014, when I was asked to email the events to the Office of the President!

D03

(Continued page 4)

I apologize to you if it seems that I am dragging this incident and even this letter, but what if this had
happened to someone else (or happens to someone else in the future) and they don't have a voice?
Anything I have done which is wrong has been met with my acceptance and cooperation. I have done
absolutely nothing wrong and have been wondering why I am targeted; besides the fact that the Devil
has been influencing individuals to conspire and fabricate issues that otherwise would never have
occurred. When I met the UVI Security Chief on June 10th, 2014, six days after the incident, before we
had our conversation the Spirit directed me to ask him for a piece of paper so I could write the names of
a couple individuals who work/worked at UVI who have had some grudge or issue against me for at least
five or more years before the incident. When I asked him if he had done any investigations concerning
those names, he responded with a no.
Earlier, I mentioned that I chose actual facts over speculations as to what has been happening to me
over the course of the year and a half. It is no secret that several individuals, including employees at
UVI, know that I have been part of a group that is attempting to create a school of higher learning for
those who cannot afford the time or tuition of a traditional college education; it was slated to start
classes on August 26th, 2014, mere months after this incident between myself and UVI. Documents
were submitted, accreditation measures were on the way, and we had the backing of one of the more
prolific investors on the planet. After the UVI incident, I truthfully made mention of an ongoing issue I
needed to resolve with UVI so that this "baggage" would not hinder any progress, and the longer UVI
refused to resolve this mess (even up to now) the more this progress has been stalled. In my opinion
this is no coincidence, but I am trying so desperately to rely on the facts and am having a most difficult
time with the university regarding such.
I also mentioned the money was not the most important thing concerning this matter. This school I am
a part of was a vision I received from God a few years back, and we were finally in a position of breaking
ground. An individual named Romeo Roger Richardson was also directly affected by all this, as he was
the one whom UVI allegedly accused of distributing funds to my UVI Community Borrowers account.
And, most importantly, the truth has to come out.
(To be fair, this upcoming paragraph was added/altered after the letter was sent to Magistrate Carr.)
Lastly, I would like to state that no one individual or entity should decide or forcibly speak for someone
else as to what is to be allowed or accepted as an apology. That someone else has every right to make
that decision for himself/herself without any added pressure. Reference is made to the second-to-last
paragraph of the mentioned court order (ST-15-SM-522).
With sincerest of regards, and appreciation in advance for the viewing of this letter,

Calvin Gumbs II
(340) 227-5621

P.S.: My telephone numbers;

D04-

(340) 244-5260

Current Section: Duhaime.org » Legal Dictionary

Duhaime's Law Dictionary
Apology Definition:
A statement of regret and responsibility for an act or omission.

An apology is an expression of remorse and an acceptance of responsibility for an act or omission.
Apologies are increasing encouraged by free and democratic societies as a tool to calm both circumstances and the aftermath of small or trivial incidents (when
there are no lasting injuries) and that may otherwise give rise to litigation.
But, as Arizona State University law professor Jeffrie Muphy writes:

"For small wrongs, the mere verbal formulae nJapologise” or "lamsorry" or "Forgiveme" or "Excuse
me'* are generally adequate since their only function is to keep oiled the wheels of civility
and good manners.
"What works for small wrongs is likely to be quite unacceptable for wrongs of greater
magnitude, however. ... Here we normally expect such things as repentance, remorse (in at least
one of its forms), and atonement; and we are interested in apologies only to the degree that we
believe that they are sincere external signs of repentance and remorse and reliable external
signs of future atonement."
Persons involved in an incident from which may arise liability are often stopped from dong the decent thing
of extending an apology where their actions have contributed to any injury, orjust to show sympathy, for fee
that the apology would later be taken as an admission of guilt or preclude contributory factors that might late
emerge from the evidence.
in a litiguous society, the first forays into the law in this regard have been tentative. In his 2000 Yale Law
Journal article, Lee Taft wrote of apologies as *the healing mysteries ofthis sacred process" and that:

005

"In the 1970s a Massachusetts legislator’s daughter was killed while riding her bicycle.
The driver who struck her never apologized. Her father, a state senator, was angry that the
driver had not expressed contrition. He was told that the driver dared not risk apologizing,
because it could have constituted an admission in the litigation surrounding the girl's death.
Upon his retirement, the senator and his successor presented the legislature with a bill
designed to create a safe harbor for would-be apologizors: 'Statements, writings or benevolent gestures expressing
sympathy or a general sense ofbenevolence relating to the pain, suffering or death ofa person iimlved in an accident and made to such
person or to thefamily ofsuch person shall be inadmissible as evidence ofan admission ofliability in a civil action,'
"There is, of course, a distinction between an apology ... and the protected expressions of
sympathy contemplated by.. the.Massachusetts(statute which) protect^ generic words that expreS;S^. .
sorrow about another human being’s suffering (and not) an authentic apology, understood here as
an expression of sorrow coupled with an unequivocal statement of wrongdoing, what is protected
are expressions like I'm sorry you are suffering or I’m sorryforyour loss, What is not protected are
statements like I'm sorryyou are suffering because ofmy behavior. My conduct was wrong. I regret it, and the pain it has inflicted."
An often forgotten characteristic of an apology is that it requires courage.
An apology is often a mitigating factor in defamation, contempt of court and in cases where the defendant may have otherwise been exposed to punitive
damages. An aplogy is often relevant in sentencting.
The Canadian province of British Columbia brought in a very short Apology Act in 2006. ofwhich the following three articles of law essentially set out the
entirety of the law:
"(An) apology means an expression of sympathy or regret, a statement that one is sorry or any
other words or actions indicating contrition or commiseration, whether or not the words or
actions admit or imply an admission of fault in connection with the matter to which the words
or actions relate....
"An apology made by or on behalf of a person in connection with any matter ... does not
constitute an express or implied admission of fault or liability by the person in connection
with that raatter"and must not be taken into account in any determination of fault or liability
in connection with that matter; (and)
"Evidence of an apology made by or on behalf of a person in connection with any matter is not
admissible in any court as evidence of the fault or liability of the person in connection with
that matter."
In her 2012 article in Appeal, law student Claire Truesdale and defines an apology as follows:
"... an acceptance of responsibility for a specific act ... acknowledgment of the injury
caused by that act, and an expression of remorse or regret."

DOG

r--r

/

tr,' si
r r<j

E ? Z& f

q S-S-1I
g.® Jti
< <

-5

O ic*

#-•

sb

C-

fir

•-t 5*
CfQ
». §

£3-

5-

C/>
gy:
j3

!g?
3S•S

Qu
c/5

¥
2a

m-

-vj

p
3n
cr o, sj

SB'1

m CT
O' 3n>

H CD <
5^ C1 3
O- X. 3

cr ss
pT-Ji

3

Co — «-■'

>

«■ g p
<
^ 3
— OJ'

PHi
C3 F*T

O'
©■

“O

CD

«i

O'
h-■

cr

yi,

a
t-*

r :!

Ul:

t-1
cr
cr
a

f*

r

$
>

2

a
o
o
b-*:
fr*
FIJ:
-C
in
Ln:
-C

V ,;

Ln

•jo:

/

“W**

ST THOMAS,. VII

tOOO'

00801

4

*®1P
$6.74

I

R2305KT34868-04

D07

i

9mmy
^U^SPVirginlslands
!■

HistoricallyAmerican. Uniquely Caribbean. Globally Interactive.
'/

Office ofthe VPfor Information Services & Institutional Assessment

August 31,2015
Greetings Mr. Gombs,
On behalf of the University ofthe Virgin Islands, I want to let you know that our goal is always to have a
positive and pleasant experience with our students and patrons. We strive to deliver outstanding customer
service and we deeply regret when our patrons do not feel like we have treated them respectfully You
and' l have: talked several times about the 2014 incident in the library. 1 am sorry you were placed in a
situation where you felt accused and disrespected.
'favour
f ^ ^scTisstons;r have ySrified' that^thratiOns^f MsyRarfigtfn: and Chief Glasfcrd were conducted
(acxording to-UVi policy andi assure1 you their conduct was-with theftesfintentions. I do regret that we
did: not do a better job of making you feel you were being treated fairly. "That would have been ray hope
for the situation,,
gecause.of this- incident; I am^grahting-you-a-full'refuhd 'df tfie'$5(Tyou paid foryourrcomTriuhrty'borrowers membership,.even tliough thrdeadline f<5r,tlre: conversion- harpossed: We allowed all of our
community borrowers to convert their membership to the newer “Preferred Users Program”, which
allowed them to choose between a refund and a $30 annua! membership. The refund check is enclosed in
this letter.
Although this transaction concl udes the relationship between yourself and the University, I can. assure yon
thatjwwinra^hdt we have-leamed-frtynrthis;e^^ieirw and apply, iffbTmprovcour services and our
te^ionship.witlT patrons.’
The University is no longer pursuing, the investigation into account discrepancres/Weconsiderthis matter ’
‘dldsed;*I sincerely wish you the best in all ofyour endeavors.
With Respect,
s.

Tina M. fCoo pm^nsX/ ^ ^
Vice: Presidgsrfof^mjefrmation Services, and Institutional Assessment
:Cc:

David \M\, President
(Samuel ff^Hal EfAttomey,-

John Brewers Bav * St. Thnmfi? » ITSVT nns/tt.GQOA

DOg
T«l

/‘iAAxCO.t

| fjA

ITS'

f At ✓ ft «

This is in reference to case#

ST15-SM202

and the August 19th, 2015 supposed negotiated

"settlement" which was to include letter of apology that I was to receive by the end of August 2015:

Not only did I not receive this "apology” letter by the proposed time (a copy of the envelope
demonstrates the postmarked date of September 1st, 2015), but it was anything but an apology.
Granted, it was a very well-written letter and the first paragraph constitutes what is defined as
apologetic, the remainder of what was written was not anything l agreed upon; it just shows few
individuals believe they can say, do, and get away with anything they want and expect it to be the
utmost law of the land. I did not ask for any of those statements to be placed on this so "apology"
simply because:
1)

I did not ask for those written statements, and

2)

I did not agree with those written statements

As I discussed with Tina M. Koopmans, I do not or have not worked for UVI so I cannot quote policy.
Nevertheless, if it is policy to tell someone that they should be computer literate enough to understand
what is to be told to them, upon which both Ms. Koopmans and Kelly Harrigan stated there is nothing
wrong with that comment (right after Kelly Harrigan lied by saying Kelly Harrigan never said that <caught
in the act!>), then there is a serious violation with the university as it concerns business ethics and how
you speak to people.
If it is policy that Chief Glasford is supposed to escort and ban an individual from the UVI campus just
based on what Kelly Harrigan says (lies or not, I wasn't there) without getting that individual's side of
events, then I reiterate the serious violation with the university as it concerns business ethics.
Tina M. Koopmans did not grant me a full membership refund because of the June 4th, 2014 incident
(another lie). Ms. Koopmans and I had a telephone conversation on the afternoon of August 21st, 2014
where she stated to me that, if she had known that I've never gotten a notice of the change in the UVI
Community Borrower Membership, she would have refunded my membership fee with no questions
asked. The "apology" letter is making it to be believed that it was a settlement from our August 19th,
2015 court date.
The fact that Tina M. Koopmans added the statement that the university will take what they learned in
applying it to improve relations with patrons is disguised in a dog whistle-type strategy as a proverbial
slap in the face. That comment, as well as the aforementioned points, did not need to be placed in an
"apology" letter because they are not apologies, were already discussed verbally in prior conversations,
and were not agreed upon to be discussed in an apology letter.

Calvin Gumbs II

po^

•

F1NDLAW

What is Coercion?
A facility manager pulls a consumer aside and threatens to empty his account if he
doesn't comply with her statement of an erroneous amount. The consumer knows it's
a violation of ethics and standard policy to help the facility manager cheat, but he
also doesn't want to lose his entire balance; so, he relents and gives false infor­
mation for the sake of his account. This is a classic example of coercion, wherein one
party uses intimidation or threats to force someone to act against their will.
Although a wide range of acts may broadly be considered coercion, laws and legal
definitions provide more clarity as to what constitutes a civil wrong or a crime (or a
defense to criminal charges in some instances). The statutory definition of coercion is
fairly uniform throughout the country: the use of intimidation or threats to force (or
prevent) someone to do something they have a legal right to do (or not to do).

Definition of Coercion
The broad definition of coercion is "the use of express or implied threats of violence or
reprisal (as discharge from employment) or other intimidating behavior that puts a
person in immediate fear of the consequences in order to compel that person to act
against his or her will." Actual violence, threats of violence, or other acts of pressure
may constitute coercion if they're used to subvert an individual's free will or consent.
In legal terms, it's often said that someone who's been coerced was acting under
duress. In fact, "duress" and "coercion" are often interchanged. Black's Law Diction­
ary defines duress as "any unlawful threat or coercion used... to induce another to act
[or to refrain from acting] in a manner [they] otherwise would not [or would]."
It's not always easy to tell when the line between subtle intimidation and coercion
has been crossed and even harder to prove. A shrewd business negotiation may be
considered contract coercion only if it can be proven that it was signed under duress.
Similarly, proving criminal coercion (or duress) rests on the surrounding facts of the
incident and may be quite subtle. For example, telling someone "Gee, I'd hate for
something to happen to your daughter" is technically vague even when it's said with
coercive intent.

Federal Coercion Laws
The term coercion can be found in multiple sections of the U.S. Code in relation to
political activity, employment, sex trafficking, commerce, housing, and contract law,
to name a few. Sometimes these codes use the term "duress" instead, but they're
similar in their recognition of acts done under pressure from another party.

DIO

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)
vs.

Kelly Harrigan, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the Virgin Islands
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

APPENDIX E
Calvin Gumbs, II
(Your Name)

Post Office Box 12013
(Address)

Saint Thomas, VI (US Virgin Islands) 00801
(City, State, Zip Code)

(340) 77.5-4558 -or (340) 227-5621
(Phone Number)

APPENDIX E TABLE OF CONTENTS
Excerpt from Civil Complaint ST-16-CV-233 Filed by Plaintiff through Superior Court....... E01
Excerpts from Civil Complaint ST-17-CV-342 Filed by Plaintiff through Superior Court...... E05
February 22nd, 2017 Order of 2016-0034 through VI Supreme Court

E13

Notice of Appeal Filed as 2020-0041 by Appellant through VI Supreme Court..... E15
Scheduling Order for VI Supreme Court Case Number 2020-0041

E26

July 31st, 2020 Order of the Supreme Court of the Virgin Islands

E28

Motion for Reconsideration of Order(s) for Dismissal for Lack of Jurisdiction and Granting
Appellee’s Motion to Dismiss.......................................................................................... E31

IN THE SUPERIOR COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN

Calvin Gumbs, II,
Plaintiff,
vs.
Tina M. Koopmans,
Kelly Harrigan,
UNIVERSITY OF THE VIRGIN ISLANDS,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

CASE No.

ST-16-CV-233

ACTION FOR: Character
Defamation, Petty Theft,
and various related counts.

CIVIL COMPLAINT FILED BY THE PLAINTIFF THROUGH THIS COURT.
COMES NOW, through affirmation under oath, Plaintiff, Calvin Gumbs, II, states as follows:

4) This claim can be summed up in no less than seven (7) counts, most of which is the doing
of one Defendant, Kelly Harrigan, an employee of the University of the Virgin Islands, in
the opening statement made to me by one Kelly Harrigan on the fourth of June year 2014:
“I know you are computer literate enough to understand what I am about to tell you.
Romeo Richardson has placed thousands ofdollars on your account. You are the
reason we have to keep replacing our print cartridges. I am not going to revoke your
account, but it now has a balance ofzero and, ifyou want to print any further, you
are going to have to put money in your account
Kelly Harrigan, when
confronting Calvin
Gumbs II on alleged but
UNPROVEN claims that
were made by Harrigan.

Grounds for seeking damages
The counts for which I am seeking damages are the following:
•

FALSE ACCUSATION: the statement Kelly Harrigan made, particularly,
‘‘‘'Romeo Richardson has placed thousands ofdollars on your account. You
are the reason we have to keep replacing our print cartridges.”

E01

•

ABUSE OF POWER/AUTHORITY: the Tone of which this statement was
made to me by one Kelly Harrigan.

•

TARGETING: the “fact” that someone placed these “thousands of dollars”
on my account (according to one Kelly Harrigan) without my knowledge or
consent should raise questions by one Kelly Harrigan and the entire UVI
department. However, they decided to focus solely on Romeo Richardson and
myself. I conclude there was no actual investigation, especially since Tina M.
Koopmans was quick to decree there would be no further looking into the
issue in our August 19th, 2015 Small Claims Court negotiation period, as
mentioned in the subsequent supposed “apology” letter to me.

•

BULLYING: two (2) individual parts of the statement made by one Kelly
Harrigan: “/ know you are computer literate enough to understand what I am
about to tell you.” and “You are the reason we have to keep replacing our
print cartridges.” A case could also be made at the August 19th, 2015 period
(negotiation table) when Ms. Koopmans tried to make me say I made a $1,100
deposit while dangling the possibility of refunding my zeroed balance.

•

CHARACTER DEFAMATION: the false accusation(s) along with the
gesture made when one Kelly Harrigan went to just about every office in the
Ralph M. Paiewonsky Building of UVI to make known her “championed”
effort and that I was being escorted out of the building by three (3) UVI
Campus Security Personnel, stating that I was BANNED from the campus.

•

THEFT: the statement made when one Kelly Harrigan informed that my
account “... now has a balance ofzero ...” when it had a balance of $263.70 as
of the time I was called away from my task (that I had not completed) to speak
with one Kelly Harrigan.

•

COERCION: the BRIBERY attempt by Ms. Koopmans after one Kelly
Harrigan pulled out several sheets of paper with information in small print,
knowing that I was wearing a dark shade of sunglasses and couldn’t see any
information that small. Kelly Harrigan then stated to me that the first line of
the document showed a deposit that I made in the amount of $ 1,100 (it was
later found out that it was NOT a deposit of $ 1,100 but a total balance at the
time of $ 1,105, which was also suspect), at which point Ms. Koopmans
chimed in and declared, “I will refirnd your $263.70 if you admit to making
that $1,100 deposit,” in an attempt to get me to make a false statement. I did
not, by the way, fall for their parlor trick.

It is my wish that the court conduct(s) itself/themselves in an impartial, objective, and
fair manner with regard to hearing all the matters that I plan to bring to the attention
of the court for consideration and not bring the court into disrepute with impropriety
as prohibited by the Virgin Islands Code of Judicial Conduct.

E0Z

Background
On June 4th, 2014 between the hours of 10:00 A.M. and 11:00 A.M. at the Ralph M.
Paiewonsky Building of the University of the Virgin Islands, I was approached by one
Kelly Harrigan, who asked me to step outside of the computer room known as the
“24/7 Computer Lab” for a discussion (the only part of this incident done to me in a
professional manner).
In a quote that was essentially verbatim, Kelly Harrigan proceeded with this, such a
condescending declaration:
“I know you are computer literate enough to understand what I am about to tell you.
Romeo Richardson has placed thousands of dollars on your account. You are the
reason we have to keep replacing our print cartridges. I am not going to revoke your
account, but it now has a balance of zero and, if you want to print any further, you are
going to have to put money in your account.”
When hearing this, I was expectedly floored and jaw-dropped by this definitively
blunt accusation. I asked repeatedly just to make sure I heard this correctly...
I went back to Kelly Harrigan to get clarification of this “thousands of dollars” that
was stated to me (a declaration of asking for proof of this ridiculous accusation); all I
got from Kelly Harrigan at that point was “he put $200 dollars here, $600 dollars
there.” Kelly Harrigan then dropped that subject immediately and boldly stated,
“You do not have a lifetime membership; you have an annual membership of $30.”
Not knowing where this was going, I boldly stated back, “I had a lifetime
membership in the past...” Before I could finish my response, Kelly Harrigan
instantaneously decided to call campus security to have me removed from the
premises. I was flabbergasted as to what was going on at that moment; I can only
assume that, being a naturally-loud speaker, I perhaps raised my voice and Kelly
Harrigan probably thought I was being threatening. Within minutes, not one, not two,
but THREE campus security personnel (including Security Chief T. Glasford) arrived
and escorted me off the campus mentioning breach of peace and saying that I was
BANNED from the campus!
It was Security Chief Glasford who provided me with the UVI telephone number of
(340) 693-1000 and advised me to get in contact with the UVI President, Dr. David
Hall. When I called around 2:00 P.M. that very same day, I did not get the President
but got to speak with Ms. U. Dyer, who I believe was the Assistant to the President.
... Ms. Dyer also released to me the telephone number (340) 693-1540, which was
the number for Tina Koopmans, who was the head of the department at which the
incident took place.
When speaking with Ms. Koopmans on August 21st, 2014, more information was
shared with me. Firstly, she wanted to express to me that she spoke with Kelly

EOS

Harrigan, stating she wasn’t pleased with the way that incident was handled and that
it should have been handled better/more professionally. Secondly, Ms. Koopmans
said had she known that I had not received the notice of change in my membership
(and that I would have opted out) then she would have refunded my $50 for the initial
lifetime membership for which I signed back in 2008. She then proceeded to instruct
me that the issue with my account being manipulated dated back to 2010 where $500
was placed on my account. She also shared that my new $30 annual membership fee
payments have NOT been recorded even though I have actively been using my
account up until the June 4th, 2014 incident.
... I filed a claim at Small Claims Court on May 3rd, 2015. A court date was set for
August 19th, 2015, almost one full year since I last communicated with someone from
UVI. On that date, I met up with Kelly Harrigan, one-half of the defendant of the
lawsuit, along with Tina Koopmans and Chief Glasford, who apparently represented
the other half of the defendant (UVI). In a matter to try to settle the claim, Ms.
Koopmans then took the helm, stating that since she was responsible for the
department, she would be speaking for Kelly Harrigan and will present me with an
apology letter no later than the end of the month [of August]. Kelly Harrigan then
pulled out several sheets of paper with information in small print, knowing that I was
wearing a dark shade of sunglasses and couldn’t see any information that small.
Kelly Harrigan then stated to me that the first line of the document showed a deposit
that I made in the amount of $ 1,100, at which point Ms. Koopmans chimed in and
declared, “I will refund your $263.70 if you admit to making that $1,100 deposit,” in
an attempt to coerce me into making a false statement. My response: “I will NOT
admit to anything I didn’t do, nor will I lie about anything. I did NOT make any
$1,100 deposit or any deposit anywhere that big. I can honestly say I have never
made deposits in any amount over $50.”
After Ms. Koopmans stated she will construct the apology letter and also stated that
the university will drop the investigation, I told her it was a mistake to drop it but I
will go along with the settlement (since the money was not the biggest deal to me).
While Chief Glasford volunteered to locate a court representative to acknowledge our
settlement, I asked Ms. Koopmans if she recalled our conversation a year prior about
her stating the full refund for the initial membership I paid in 2008. Ms. Koopmans
interrupted and stated she will give me a check for that membership fee. When the
court representative came to acknowledge the settlement terms, Ms. Koopmans
insinuated that she was going to do all the talking. When I heard no mention of the
apology, I interrupted with the fragment, “AND.. .AN APOLOGY,” at which point
she relented that she will get me an apology letter by August 31st [2015].
Not only did I not receive the “apology” letter by the agreed-upon time (I actually got
via post office on September 14th with the post-marked date of September 1st), but it
was anything but. After the initial paragraph which could have conceivably been
some form of an apology, the rest of the document did not depict what we agreed
upon at court and looked more like a vague attempt to cover up the university’s
wrongdoing.

ECW

IN THE SUPERIOR COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN

Calvin Gumbs, II,
Plaintiff,
vs.
Tina M. Koopmans,
Kelly Harrigan,
UNIVERSITY OF THE VIRGIN ISLANDS,

)
)
)
)
)
)
)
)
)

CASE No.
ST-17-CV-342

ACTION FOR:
Fraud/Misrepresentation - Breach of
Contract/Contractual Obligation,

Co-Defendant,)
and

)
)
)
)

Henry V. Carr, III, Magistrate,
SUPERIOR COURT OF THE VIRGIN ISLANDS, )
SMALL CLAIMS DIVISION,
)

Conspiracy to Commit Fraud,
Conduct Unbecoming, being judicial
(impropriety) or professional.

)

Co-Defendant.)

CIVIL COMPLAINT FILED BY THE PLAINTIFF THROUGH THIS COURT.

COMES NOW, through affirmation under oath, Plaintiff, Calvin Gumbs, II, states as follows:
1) The Defendant, the University of the Virgin Islands (hereinafter to be referred to as
“UVI”) and two (2) of its employees, Kelly Harrigan and Tina Koopmans, among others,
has demonstrated, by the individual and/or a group effort, a lack of respect as it concerns
a moral, legal, and criminal matter that I, the Plaintiff, have attempted to resolve very
numerous times. When the parties did convene on Wednesday, August 19th, 2015, in
spite of an eye illness that was illustrated to the Defendant when documents (which,
submitted after 440 days from Plaintiffs request, appears very suspicious and fraudulent
in nature) were presented, an agreement was verbally reached and was to be presented in
front of the Magistrate. Even after initially leaving out the apology in the proposed,
agreed-upon settlement, when speaking to the appointed Attorney [Jeffers] who was

E05

witnessing/recording the terms, Defendant (specifically Ms. Koopmans, not a Defendant
at the time) placed that condition at Plaintiffs behest.

2) It came to my attention, on the evening of June 3rd, 2016 after 5:00 PM, when a direct
witness noted a June 4th, 2014 incident where one of the employees at UVI immediately
volunteered to look up my former Community Borrower account even though a higher
level employee was asked to do so. The witness perceived the eagerness of that firstmentioned employee, and then, several minutes later, Kelly Harrigan asked me to come
out of the 24/7 Computer Laboratory to deliver the now-infamous derogatory statement:
“I know you are computer literate enough to understand what I am about to tell you.
Romeo Richardson has placed thousands of dollars on your account. You are the reason
we have to keep replacing our print cartridges. 1 am not going to revoke your account,
but it now has a balance ofzero and, ifyou want to print any further, you are going to
have to put money in your account.’'''
3) This Kelly Harrigan statement happened, once again, after this first-mentioned employee
eagerly and willingly volunteered to look up my former UVI account even though that
employee was not directly asked to do so. This appears as a ruse, i.e., someone(s) in the
UVI organization has set me up.
4) On the afternoon of May 18th, 2016, between 4:00 PM and 4:30 PM, a direct witness who
happened to observe the conversation between Plaintiff and Kelly Harrigan that led to
Kelly Harrigan calling campus security, recognized and approached Plaintiff about the
June 4lh, 2014 matter. He/she stated that Plaintiff did not appear angry and never raised
Plaintiffs voice to warrant an escort and ban from the UVI campus by campus security.
He/she also stated that Kelly Harrigan never expected Plaintiff to inquire about the socalled deposits made to Plaintiffs account and, to save face, decided to call security and
feign a threat.

5) It was called to my attention that, concerning the June 4th, 2014 incident, a direct witness
noticed Kelly Harrigan going to the different offices telling various employees about the

E0G

incident of me being thrown out of UVI’s Ralph M. Paiewonsky building while I was still
in the building, prompting an audience to watch the spectacle of me being escorted and
banned from campus. On June 3rd, 2016, another direct witness noted a period within the
prior year when Kelly Harrigan went to several UVI employees boasting about beating
me in court [which not only did not happen but, according to witnessing officers of the
court, my initial case was settled in my favor (until the fraudulent excuse of an apology
letter presented itself)]...

6) During the August 19th, 2015 mediation of Small Claims case number ST-15-SM-202,
Tina M. Koopmans and Kelly Harrigan appeared representing the Defendant, with Ms.
Koopmans doing the talking for everyone and Kelly Harrigan saying not even 20 words
the entire time. Even with the back-and-forth that initially wasn’t going anywhere due to
various severe statements made by Defendant, including but not limited to:
*

the recap of the statement made by Kelly Harrigan that started it all: ‘7 know
you are computer literate enough to understand what I am about to tell you...”
which Kelly Harrigan initially denied before following the cue of Koopmans,
with both of them saying that there is nothing wrong with directing that type
of statement to an individual,

and
•

the bribery attempt by Koopmans after one Kelly Harrigan pulled out several
sheets of paper with information in small print, knowing that I was wearing a
dark shade of sunglasses and couldn’t see any information that small. Kelly
Harrigan then stated to me that the first line of the document showed a deposit
that I [allegedly] made in the amount of $1,100 (it was later found out to be
not a deposit of $1,100 but a total balance at the time of $1,105, which was
also suspect), at which point Koopmans chimed in and declared, ‘7 will refund
your $263.70 ifyou admit to making that $1,100 deposit,” in an attempt to get
me to make a false statement (with which I did not play along),

E07

willing to keep the peace with this “mediation” Plaintiff decided to hear what Koopmans
would propose as a settlement, to which she offered to construct a written apology by the
end of the week, subsequently recanted, and then change it to before the end of the month
[of August]. (Even though I spoke with Koopmans about the previous year’s telephone
conversation about her offer to refund my full lifetime membership fee after we reached
our settled agreement, it came to my knowledge that the refund somehow found its way
into the settlement without my knowing or consent to it.) Plaintiff received the letter on
September 14th, 2015 (a full two weeks after the agreed-upon month’s end time interval,
not necessarily the fault of Ms. Koopmans) with the date on the letter to be August 31st,
2015 but the envelope enclosing that letter postage-stamped on September 1st, 2015,
which was past our agreed-upon time. Initially willing to overlook the time difference,
Plaintiff proceeded to read the letter once relieved of the illness of eyes (due to chronic
dry eye/conjunctivitis illnesses I’ve unknowingly had since February 2009) and came to
find the letter was not the apology agreed upon between Plaintiff and Koopmans. That,
coupled with the time difference, to my understanding, constitutes a Breach of Contract/
Contractual Obligation since appearing in court before a judge/magistrate emulates such
a contract or contractual obligation. It is also to my understanding that I, the Plaintiff,
can act upon those points and have up to two (2) years to file such a claim in that manner
[Martin v. Martin, 54 VI. 379 (VI 2010)], which will bring it to September 14th, 2017,
two (2) years to the day the postmaster handed me the envelope containing the letter by
Koopmans. When Plaintiff tried to converse with Koopmans about the contents of the
letter, among other matters, Plaintiff left live messages (messages with actual people and
not voicemail or answering service) on both September 17th, 2015 and October 2, 2015;
both times Plaintiff got no response or return correspondence from Koopmans.

7) A second Small Claims claim, with case number ST-15-SM-522 was filed on November
3rd, 2015 in response to that effect and was abruptly dismissed within a week (November
9th, 2015 to be exact) with an Order from Magistrate Henry V. Carr, III.

8) Within the prior year, when Plaintiff (the Appellant in the Supreme Court case number
2016-0034) was gathering documents to form an Appendix for said Supreme Court case,

E0$

I collected the Order for the second Small Claims case filed with the case number ST-15SM-522 and found major discrepancies in that Order from Magistrate Carr, page 2 of 3
in particular. My subsequent letter to the Magistrate pointed out the many clerical and
downright sloppy errors, but that particular page pointed out some things that I did not
see when constructing my letter, things that insinuate certain biases against the Plaintiff.
The third sentence of the first paragraph on that page clearly states:
“The parties involved in this mediation forum were Defendants Tina Koopmans, Vice
President of Information Services and Institutional Assessment on behalf of UVI;
Theodore Glasford, Chief of Security on behalf of UVI; and Kelly Harrigan, Director
of School and Medicine of UVI.”
I originally thought that this was another oversight by the Magistrate since Plaintiff was
supposed to have been included in the mediation. However, after reviewing further in
that paragraph of the enclosure of $50.00, of which the Plaintiff had no knowledge or
made no consent as it pertained to that subject matter, along with the footnote made on
the bottom of the aforementioned page that states:
“The Court determined that Plaintiff appeared to be extremely pleased with the settlement
if not downright joyful,”
of which the Court had no basis of determining Plaintiffs mood or state, I now believe
that the [Superior Small Claims] Court and the three mentioned UVI employees had a
separate conversation not involving Plaintiff and came up with a settlement on their own,
which would be a violation of the standard two-party system/consent. Add to the fact
that the bottom footnote of same page states:
“.. .While the Court does not believe that his law clerk made any such representation to
[Plaintiff], ...”
which illustrates the Court’s bias on personal beliefs, i.e., the Magistrate, who would fall
under the same Canons/Rules of the Virgin Islands Model Code of Judicial Conduct, had
violated Canon 1 by demonstrating impropriety or the appearance of impropriety.

E0<1

Also, not to be forgotten, the first paragraph on page 3 of 3 of the Order from Magistrate
Carr depicts the following statement:
“The Court finds the statement “I am sorry” sufficient to convey an apology.”
This is another example of the Court [Magistrate] imposing his/its personal beliefs upon
an individual, which in turn demonstrates impropriety or the appearance of impropriety.
Plaintiff would like to know what gives an individual, officer, or system the right to force
his/her/its beliefs on another; isn’t that a direct violation of the Bill of Rights located in
the United States Constitution? I am sorry may be the start of many apologies, but it is
for what that individual is sorry that constitutes the apology, not just those three words!
Defendant Koopmans mentions Plaintiff feeling “accused and disrespected” in that letter,
but how does Koopmans know that if Koopmans never inquired about the feelings of the
Plaintiff, particularly to that Plaintiff? It’s another assumption that makes people think
they can impose their wills on others which, once again, violates our Constitution!

“I know you are computer literate enough to understand what 1 am about to tell you.
Romeo Richardson has placed thousands of dollars on your account. You are the
reason we have to keep replacing our print cartridges. 1 am not going to revoke your
account, but it now has a balance ofzero and, ifyou want to print any further, you
are going to have to put money in your account
Kelly Harrigan, when
confronting Calvin
Gumbs II on alleged but
UNPROVEN claims that
were made by Harrigan
(circa June 4th, 2014).
Grounds for seeking damages
The counts for which I am seeking damages are the following:
«

BREACH OF CONTRACT/CONTRACTUAL OBLIGATION: specific
elaboration in the itemized 5) in this complaint. Again, due to the statute of
limitations dating to when this breach was discovered, I technically have until
September 2017 to file [Martin v. Martin, 54 VI. 379 (VI. 2010)]. Also, 7)

Eto

makes mention of the Magistrate’s role on the subject matter, with what he
believes conveyed an apology, attempting to impose his will on said topic.
•

CONSPIRACY TO COMMIT FRAUD: ...
a) the UVI employee who volunteered to peruse Plaintiffs former
Community Borrower account, which almost instantaneously
brought out Defendant Kelly Harrigan to confront Plaintiff.
b) Defendant Harrigan never expected Plaintiff to inquire about the “deposits”
in Community Borrower account and instead called campus security to turn
the tables on Plaintiff, accusing Plaintiff of some threat against Harrigan.
c) Defendant Harrigan’s “loose lips” that “planted seeds” in individuals,
creating false depictions of Plantiff s mindset and character.
d) Defendant Koopmans’ bribery/coercion attempt backed by Defendant
Harrigan’s [falsified] documents (no evidence showing verity on what was
presented to Plaintiff 440 days after Plaintiff requested proof to begin with).
e) Breach of Contract/Contractual Obligation between the parties/magistrate.
f) the dismissal of case number ST-15-SM-522 even though the breach was
made (with dismissal coming less than one full week from the filed claim).
g) the insinuation, as stated by Magistrate Carr’s Order of prejudicial dismissal
that a forum that consisted of UVI personnel mediated WITHOUT Plaintiff.
h) Magistrate Carr imposing his will/belief that by just saying the words “I am
sorry” is found to be sufficient to convey an apology.
i) the “dig” by the [Small Claims] Court to “not allow Plaintiff to
inconvenience Defendants by forcing them to return to court...”
as stated by Magistrate Carr’s Order, blocking the discovery of
the manufacturing of said conspiracy (knowingly or otherwise).

•

CONDUCT UNBECOMING...
...A PROFESSIONAL: the Tone of which this ordeal was set upon me by
Defendant Kelly Harrigan, from the initial derogatory statement to the fake
implied threat to the sloppy invitations to voyeurs as it concerns Plaintiffs

Ell

presumed demise (escort and ban, discussion of state of mind, etc.) to the
combined effort with Defendant Tina Koopmans in an attempt to coerce the
Plaintiff. Koopmans herself did not honor her commitment to the agreedupon contract/contractual obligation and refused to return correspondence
from Plaintiff (the latter which Harrigan did as well).
...A PROFESSIONAL JUDICIAL AUTHORITY: impropriety, as stated
in the itemized 7) in this complaint, documented in Magistrate Henry V. Carr
Order to Dismiss (With Prejudice) Plaintiffs Small Claims case with number
ST-15-SM-522 (November 9th. 2015) while depicting various levels of bias on
a personal viewpoint (with his beliefs, conveyances, and “digs”).

Background

A civil claim was filed on May 4th, 2016. Exactly two weeks later (May 18th, 2016) I
was approached by an individual whom I met during the June 4th, 2014 UVI incident;
this individual stated to me that I was not only non-abrasive toward Kelly Harrigan,
but Kelly Harrigan wanted to find some reason or excuse to not answer my inquiries
to their supposed findings, so UVI security was called the moment I was unrelenting.
On June 3rd, 2016,1 met an individual with a third party, and this individual told me
about a UVI employee who was eager to search and do some activity to my account
back on June 4th, 2014 - and the next thing I know, I had that infamous exchange
with Kelly Harrigan; what was interesting with what I was told was this very eager
employee was not even asked to research my account but volunteered and proceeded
to do so anyway.

Eli

IN THE SUPREME COURT
OP THE VIRGIN ISLANDS

FILED
February 22, 2017

For Publication

VERONICA HANDY ESQUIRE
CLERK OP THE COURT

IN THE SUPREME COURT OF THE VIRGIN ISLANDS
)
}

CALVIN GUMBS II,
Appellant/Plaintiff,

S. Ct. Civ. No. 2016*0034
Re: Super. Cc. Civ. No. 233/2016 (STT)

)'
)
)
TINA KOOPMANS, KELLY HARRIGAN, )
and THE UNIVERSITY OF THE VIRGIN )
ISLANDS,
)
Appell ees/Defendants.
>

r*J

CA

V.

-n
m
C3

ro
rv;

cz

-o

50

5

-o
ac
co

r*

On Appeal! from the Superior Court of the Virgin Islands
Division' of St. Thomas & St. John
Superior Court Judge: Hon. Michael C. Dunston
Considered: November 15, 2016
Filed: February 22,2017
Before:

RHYS S. HODGE, Chief Justice; MARIA M. CABRET, Associate Justice; and
ROBERT A. MOLLOY, Designated Justice. i

Appearances:
Calvin Gumbs, II,
St Thomas, U.S:.V.L
Prose,
Samuel H. Hall, Esq.
Marie E. ThomasGriffith, Esq.
Hall & Griffith, P.C.
St. Thomas, U.S.V.I.
Attorneys for Appellees.

JUDGMENT
HODGE, Chief Justice .
AND NOW, consistent with' the Opinion of even date, it is hereby

i
Associate Justice Ive Arlington Swan' is recused from this case; the Honorable Robert A. Molloy has been designated
in his place pursuant to title 4, section 24(a) of the Virgin Islands Code.

E13

IN THE SUPREME COURT
OF THE VIRGIN ISLANDS'

FILED

Gumbs v. Koopmans
S. Ct. Civ. No: 2016-0034
Judgment
Page 2' of 2

February 22,2017
VERONICA HANDY. ESQUIRE.
CLERKOFTHECOURT

ORDERED that the Superior Court’s June 9,2016 opinion and order is REVERSED and
that the case is REMANDED to the Superior Court for further proceedings consistent with this
Opinion. It is further
ORDERED that copies be directed to the appropriate parties.
SO ORDERED this 22nd day of February, 2017.

BY THE COURT:

Rhys s. hodge
Chief Justice
ATTEST:
VERONlfcAJfgANDY, ESQ.

'

By: H

Depjriy
Dated:

c>2-? rJ)Q

Copies (with accompanying Opinion of the Court) to:
Justices, of the Supreme Court
Judges and Magistrate Judges of the Superior Court
Calvin Gumbs, II, pro se
Samuel H. Hall1, Esq.
Marie E. ThomasGriffith, Esq.
Veronica J. Handy, Esq., Cleric of the Supreme Court
Estrella H. George, Acting Clerk of the Superior Court
Supreme Court Law Clerks
Supreme Court Secretaries
Ordfer Book
Westlaw
Lexis/Mi chie

m

IN THE SUPREME COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN

Calvin Gumbs, II,
Appellant/Plaintiff,
vs.
Kelly Harrigan,
Tina M. Koopmans (dec.),
UNIVERSITY OF THE VIRGIN ISLANDS,

)
)
)
)
)
)
)
)

Co-Appellee/Co-Defendant/Co-Respondent,)
)
)
)
)

and

Henry V. Carr, HI, Magistrate,
SUPERIOR COURT OF THE VIRGIN ISLANDS, )
SMALL CLAIMS DIVISION,
)
)

Co-Appellee/Co-Defendant/Co-Respondent.)

S. Ct. No.

2020 - 0041

Re: Super Ct. No. ST-17-CV-342

ACTION FOR:
Fraud/Misrepresentation - Breach of
Contract/Contractual Obligation,
Conspiracy to Commit Fraud,
Conduct Unbecoming, being judicial
(impropriety) or professional.

NOTICE OF APPEAL FILED BY THE APPELLANT THROUGH THIS COURT.
To the attention(s) of:
Kelly Harrigan

#2 John Brewers Bay

St. Thomas, VI 00802

(340) 693-1470 or 1540

University of the Virgin Islands, #2 John Brewers Bay, St. Thomas, VI 00802 (340) 693-1000
Resident agent of the University of the Virgin Islands designated: Dr. David Hall, President

Magistrate Henry V. Carr, III

P.O. Box 70

St. Thomas, VI 00804

(340) 774-2514

Superior Court of the Virgin Islands, Small Claims Division
Post Office Box 70

Saint Thomas, VI 00804

(340) 774-2514

Resident agent of the Superior Court, Small Claims Division designated: LaStar Watley

Re: Superior Court Case Number ST-17-CV-342, of which the judge’s notice of entry of order
returned a partial dismissal with prejudice for Defendant Henry V. Carr and unrecognized party.

£15

COMES NOW, through affirmation under oath, Appellant, Calvin Gumbs, II, submits this
notice, appealing civil court case # ST-I7-CV-342, stating as follows:

I must say that I am uncontrollably offended by the order that was given to me by a [court, federal,
or Virgin Islands] Marshal on May 27,2020, a whole three months after the order was entered [on
February 27,2020] , pertaining to case number ST-17-CV-342 for a number of reasons.
I) The first paragraph of said order claims that this entire incident “occurred in or about June
2014 involving two employees of the University of the Virgin Islands...” Just exactly who
are these “two employees” to what this order is referencing? If there was a legal objection
to this statement, it would be that it assumes facts not in evidence. There had never been
a[n in or about] June 2014 incident that involved two UVI employees, at least not where it
concerned me or my claim(s). This is why there are multiple issues when it comes to the
claims I submitted - no one [at least on the Superior Court level, Magistrate or otherwise]:
is taking the time to read what I have very carefully explained in my claims; they are just
making assumptions and decreeing orders without the proper analysis(es) !

2) The first paragraph also claims that this incident is “relative to Plaintiff s privileges at the
University library.” I have seen NO documentation nor have I made claims whatsoever
about my privileges at the University library; in fact, said library was never a factor of any
of the claims I have submitted - it was and had always been about the treatment I received
from staff at the University itself. The only references about the library is the location of
their offices and the location of the computer lab - that’s all!

3) The last sentence of the second paragraph construes this:

El 6

“Apparently, all of the Defendants are alleged to have damaged Plaintiff by an undefined
and unexplained ‘conspiracy to commit fraud. ’”
Apparently, I have to once again refer to the [Superior Court] judges not properly analy­
zing my claim for definition and explanation - or are they just ignoring Magistrate Carr’s
November 2015 order where he lists:
“The parties involved in this mediation forum were Defendants Tina Koopmans,
Vice President of Information Services and Institutional Assessment on behalf of
UVI; Theodore Glasford, Chief of Security on behalf of UVI; and Kelly Harrigan,
Director of School and Medicine of UVI”
By the way, Theodore Glasford was never a Defendant in my claims, another oversight
by the Magistrate [and also by me, apparently].

4)' The third paragraph of said order states that the “moving defendants filed their Motion
for a Ruling June 17,2019.” Again, I do not know how this entire system works, so I
do not know if I was supposed to receive something - anything - to that effect or not
[of which I have not].

5) In Kendall v. Superior Court of the V.I., under Section II. CONCLUSIONS OF LAW.
the very first paragraph under A. Government as a Defendant states the Government
“somewhat peculiarly claims that it does not litigate on behalf of the entire Government,
but only the executive branch,” and if a person is “an employee of the Superior Court,
and not the executive branch, the Government as a whole cannot have any liability... >ti

i

https://www.casemine.com/judgement/us/5914f730add7b04934993d4f

Page 13

E17

Therefore, Attorney Gimenez’s assertion that Magistrate Carr and the Small Claims
Division of the Superior Court cannot be sued without suing the entire Government of
the VI does not hold weight in this argument, and neither should the order of dismissal
of these parties from this claim.

6) The [Co-Appellee] university and its two employees [at the time] didn’t uphold the ruling
of [Co-Appellee] Magistrate Carr and the Small Claims Division (instead, mailing the socalled apology beyond the date that was transparently designated in the ruling), yet, some­
how, this is okay and there was NO breach of contract? I would like someone to explain
this to me.

7) I would also like someone to explain the middle of the fifth paragraph of said order,
which states:
.. Plaintiff directed the'Virgin Islands Marshal to serve ..
I did not know I had the power to direct anyone, let alone a Virgin Islands Marshal, to do
anything, let alone serve anyone. Again, this is assumes facts not in evidence, as I did
not know what the procedure was until I was told by a [Superior] Court employee to
make sure I had enough copies of my claim for all of the Defendants (now Appellees)
and leave them there [at the Superior Court]. I am being accused FALSELY once again,
and do the judges have this “legally immune” right to do that? to me? to anyone?

8) If we’re talking about the matter of law, how is it that certain [classes of] people can do
whatever, get away with whatever, and inflict harm to whomever, and the action[s] can
still be j ustifiable in a court of law? And how can a judge or magistrate make light of an

m

issue as if it was for sport and not be called for being improper? Even in this particular
order did I find underlying statements and directions that make light of my lack of know­
ledge in the legal system and challenge my path step-by-step when there are issues even
with said order. Because you [the judge] have a legal diploma of education, does that
give you the right to abuse your so-called “judicial or sovereign immunity” by your prose
in your orderfs] as a matter of law?

9) The middle of said order may or may not show merit, but I will reiterate that ignorance is
not an excuse when it comes to the law; by the way, that also applies to those charged
with interpreting and applying the law to others, otherwise that would be incongruent.
When I was diagnosed with avascular necrosis [to go along with the other disorders I am
blanketed with] in late-2016 and was strenuously advised to use a cane, I was severely
limited with my mobility as well as access to some facilities. Much of the law and pro­
cedures were not made available to me, but I always try to do the best I can. I provide
information based on two major principles: (1) putting myself in the other personas’)
shoes; and (2) giving facts and fair instances that a layman (or more correctly, layperson)
or savant could envision an unbiased world, nation, territory, or community to be.

10) That being said, with the compound situations of the coronavirus pandemic and shutdown,
the 2017 Category-5 hurricanes, the constant power outages, the multiple recusals from the
multiple assigned judges, the inability of access to much of the legal codes and prior cases
on my part, the physical [health] limitations upon myself, the elongated period of time
since the ST-17-CV-342 claim was first filed, and the untimely passing of a number of

Page 15

EH

individuals involved in said claim, including Tina M. Koopmans, a named Defendant (CoAppellee) of that and prior claims, the scope of this suit has changed significantly.

11) The seventh paragraph of said order puzzles me. Where else would I have met or known
Henry V. Carr, HI except for in a judicial capacity as the sitting officer of my Small
Claims claim? I have presented [not an appeal, but] information claiming error(s) in
much of the ruling of the Magistrate Division, including his assumptions for what an
apology is, what was agreed upon during an August 2015 mediation, and who were
supposed to be in that mediation.

12}The eighth paragraph of said order has a line in the middle stating,
“Although unfairness and injustice to a litigant may result on occasion, ‘it is a general
principle of the highest importance to the proper administration ofjustice...
I don’t get it: if unfairness and injustice results on occasion, why are they [unfairness and
injustice] allowed on occasion or at all? Why is a judicial officer not held accountable
for his (or her) actions on his (or her) brand of [injustice?

13) I understand that I [or anyone, rather] cannot speak for another’s actions, but it was made
very clear in Magistrate Carr’s order pertaining to Small Claims number ST-15-SM-522,
in the parts listed in my subsequent letter to Magistrate Carr and in case number ST-17CV-342 itself, that he was annoyed with what he thought was a repeat claim, and judicial
officers do not get to be annoyed, as a matter of law (judicial conduct), when presiding
over a matter.

E20

The fact that Magistrate Carr claimed that I inconvenienced the Defendants of that Small
Claims case (Co-Appellee on the University of the Virgin Islands side) conveyed that he
totally ignored the fact that I was inconvenienced when I had to take the time and resour­
ces to file the claim after many months of being ignored by said Defendants (Co-Appel­
lee on the UVI side) who not only stole from me but also did not adhere to his very own
ruling! The fact that Magistrate Carr denied me of my constitutional right to due process
[both Amendments V (Five) and XIV (Fourteen)) illustrates his “egregious” legal1 error.
The fact that Magistrate Carr listed names in a mediation that did not include mine as­
sumes that there was ex parte communication between himself and the Defendants. The
fact that Magistrate Carr received information about a blackmail occurring at the one me­
diation that the Plaintiff (Appellant) was involved in and did not even investigate the
matter insinuates a [possible] conspiracy involving the Magistrate himself. The fact that
Magistrate Carr constantly referenced a $50 reimbursement and not the original $263.70
amount (that he continued to miscalculate) stolen from my UVI patron account presents
an involvement of a [potential] cover-up that had not been looked into nor were the funds
recovered by me, the Plaintiff/Appellant, to this day. And these injustices are supposed
to-be over-looked because he was the presiding judicial officer? Is this what was envisi­
oned by the creators and contributors of our supreme law, the United States Constitution?

14) The order from the court is, in my most sincere, humble opinion, the most absurd of all.
As I delved into what the [J]udge [Brady] was trying to emphasize in his orders, I started
to realize that between the time this [ST-17-CV-342J claim was submitted [on July 31,
2017] and the time this order was received by me via a [court, federal, or Virgin Islands]

Page 17

Ell

Marshal [on May 27,2020], a total of 1,031 days (or over two years, nine months, and
three weeks) have elapsed.
Within that timeframe, the following occurred:
•

[I first found out about] the passing of one of the Defendants [Co-Appellee
Tina M. Koopmans] earlier in July 2017;

• the passing of one of my supporters to this case occurred about a month' later;
• the passing of two Category-5 hurricanes [Irma and Maria] a month after that;
• the island-wide power outage for the rest of 2017 [and in my case, the first
few days of 2018];
• the aftermath and acclimation to the island throughout the first several months
of 2018;
• the continued power outages during the next couple years [that is a current
issue for all of us];
•

additional deaths that have occurred among acquaintances;

• numerous self-recusals from judges assigned to this [ST-17-CV-342] claim;
• a back-and-forth with counsel for Magistrate Carr and the Small Claims
Division;
• an [unknown to me] additional filing by counsel for Magistrate Carr and the
Small Claims Division;
• constant never-ending family issues;
• my consistent and current illnesses, disorders, and low immunity system
[health wise];

E2.2.

•

the malfunction(s) of computers and other various technical equipment,
particularly mine;

and now, most recently,
• the coronavirus pandemic that is still ongoing -1 might add - to probably no
end.
Judge Brady wants to order me to show cause for this claim [which had been stated
numerous times] and submit proof of service of process to the non-“immune” parties of
this claim, knowing very well that the service of process was done, as a courtesy due to
my in forma pauperis status, as he so clearly indicated in the middle of the fifth
paragraph of said order.
This “game” that he is playing is neither appropriate nor judicial, and yet he is allowed
941 days (that is, up until February 27, 2020) to come up with this, while I am offered
[from May 27,2020] only 30 days to conjure something that took place almost three
years ago? Again I must reiterate: I was told by a [Superior] Court employee to leave
the copies of my claim with them.

15) On July 29,2017,1 received a Notice of Entry of Order Setting Deadline dated July 19 20,2017 but not viewed until July 31,2017 early A. M. due to my chronic dry eye
condition (conjunctivitis). This notice informed of and confirmed the death of CoAppellee Tina M. Koopmans (notice of death filed on July 17, 2017), something I was
not aware of when I created, prepared, and was to submit ST-17-CV-342 (claim). The
notice also ordered:

Page |i 9

E13

“substitution ...in Koopmans ’s stead ... shall be filed ...in no event later than July I,
2019...”
filed on case ST-16-CV-233
After investigating with the Superior Court, I can definitively state that, as of this writing,
no record of substitution had been entered or forwarded.

16) Whether these [Magistrate and Superior Court] judges realize this or not, their actions
and inactions are violations to my rights as a citizen of this territory and nation, both civil
and political. Civil rights are supposed to be guarantees of equal social opportunities
and equal protection under the law! These include the right to a fair trial: the right to
government services; the ensuring of peoples' physical and mental integrity: protection
from discrimination on grounds such as political affiliation, religion, and disability; and
individual rights such as the freedom of thought, speech, religion, and movement.
Political rights include natural justice (that is, the procedural fairness^ in law, including
the right to a fair trial; due process; the right to seek redress or a legal remedy: and the
right to petition. Civil and political rights form the main part of international human
rights, and it was my human right to investigate and seek answers for the reasons why
Kelly Harrigan and other members of the IT Division and, eventually, UVI as a whole
devised a scheme intended to deceive or incriminate me - in other words, set me up but I’m being deterred [through ignoring the key facts of my claim(s)] by Judges Brady,
Dunston, Carr, and others who are supposedly “legally” preventing me from' uncovering
the truth. In the meantime, all of our (my business associates and my) proposed projects
were being held up because of my false entrapment. As a matter of law, how is all of this
lawful?

E24-

17) I,, the Appellant, will be representing myself for the; time being and, if called to testify.
I. would competently state the facts alleged in this affidavit/statement.

FOR THESE REASONS, I am requesting the entire case [ST-17-CV-342] to be appealed so
that. Che order [partial dismissal and remaining pieces] be overturned. It just seems that, fio* one
is. paying attention to what, was being, conveyed in the claim, and everyone is ignoring how the
ciaiinUi’s) came; about in the first place. I. was and am just trying to right a wrong so that E can
faithfully execute, plans to create opportunities for this community to grow mentally,, econom­
ically, and overall effectively. The more positive opportunities that we have-, less and less
negativity will result.
It's just too bad I am not: given the opportunity to be heard.
It is my wish, that the court conduct(s) iitself/themselves ini art; impartial, objective,, and
fair manner with regard to hearing all the; matters that I plan to; bring: to the attention.
of the court for consideration and not bring the court into disrepute with impropriety
as; prohibi ted by the Virgin Islands Code of Judicial Conduct.

1.8) Further Affiant sayeth not/naught.
Respectfully submitted.

Calvin Gumbs,- H
Appellant
Page j EI

EZ5

in' me

durKeme kajvk t
OF THE-VIRGIN iSUANDS

FILED
July 8, 2020
VERONICA HANDV. ESQUIRE
CLERK . OF THE COURT

IN THE SUPREME COURT OF THE VIRGIN ISLANDS

S. Ct. Civ. No. 2020-0041

CALVIN GUMBS, II
Appellant/Plaintiff.

Super. Ct. Civ No. 342J2017 (STT)

v.
KELLY HARRIGAN, TINA M. KOOPMANS,
UNIVERSITY OF THE VIRGIN ISLANDS and
HONORABLE HENRY V. CARR, III,
MAGISTRATE, SUPERIOR COURT OF THE
VIRGIN ISLANDS, SMALL CLAIMS
DIVISION,
Appellees/Defendants.

SCHEDULING ORDER
Because no transcripts were ordered pursuant to Virgin Islands Rules of Appellate
Procedure 10 and 11, it is hereby
ORDERED that pursuant to Virgin Islands Rules of Appellate Procedure 11(b) and
40.3(j), the Clerk of the Superior Court SHALL FILE THE E-RECORD on or before July 20,
2020. It is further
ORDERED that pursuant to Virgin Islands Rules of Appellate Procedure 25:
1. Appellant SHALL FILE AND SERVE Appellant’s Brief and the Joint Appendix within
forty (40) days on or before August 17,2020.
2. Appellee SHALL FILE AND SERVE Appellee’s Brief within thirty (30) days after filing
and service of Appellant’s Brief.
3. Appellant MAY FILE AND SERVE Appellant’s Reply Brief, if any, within fourteen (14)
days after filing and service of Appellees’ Brief.
It is further
ORDERED that the parties are ADVISED that pursuant to Virgin Islands Rules of

E1G

i ne sut-KCMcvwun i1
Or THfVlRGm ISLANDS

in

FILED
Gumbs v. Harrigan et al
S. Ct. Civ. No. 2020-0041
Scheduling Order
Page 2

July 8, 2020
VERONICA1 HANDY. ESQUIRE1
CLEftK'OPTHB'CQURT

Appellate Procedure 40.2, all briefs, appendices, and other documents filed by a member of the
Virgin Islands Bar must be electronically filed and served. Parties proceeding pro se who are not
members of the Virgin Islands Bar may, but are not required to, e-file documents. Pursuant to
Virgin Islands Rule of Appellate Procedure 40.3(h), a party who e-files a brief or appendix must
conventionally file seven paper copies of the brief and four paper copies of the appendix within
three (3) days after electronic transmission of the e-document. It is further
ORDERED that copies of this Scheduling Order be directed to the parties and the Clerk
of the Superior Court.
SO ORDERED this 8,h day of July 2020.
ATTEST:
VERONI
Clerk^oft

NDY, ESQ.
t

By:_^
Deputy Clerk I
Dated: n ?j ID'lt)

Copies to:
Calvin Gumbs, II., Pro se.,
Paul L. Gimenez, Esq.,
Marie E. Thomas Griffith, Esq.,
Samuel H. Hall, Jr., Esq.,
Estrella H. George, Clerk of the Superior Court.

Ell

m\ mt: sut-ntwe cue* i

FILED
July 31, 2020
verowoi iwndy. esooibf
CLERICOF THE GCURTT

IN THE SUPREME COURT OF THE VIRGIN ISLANDS
CALVIN GUMBS, II,
Appellant/Plaintiff,

S. Ct. Civ. No. 2020-0041
Re: Super. Ct. Civ.No. 342.2017 (STT)

V.

KELLY HARRIGAN, TINA M. KOOPMANS,
UNIVERSITY OF THE VIRGIN ISLANDS and
HONORABLE HARRY V. CARR III,
MAGISTRATE, SUPERIOR COURT OF THE
VIRGIN ISLANDS, SMALL CLAIMS
DIVISION.
Appellees/Defendants
On Appeal from the Superior Court of the Virgin Islands

ORDER
THIS MATTER is before the Court on Appellant’s Motion to Proceed In Forma
Pauperis. The Court finds that Appellant has complied with V.I.R.App.P. 3(b) and has
demonstrated an inability to pay fees and costs or to give security therefor. Therefore, this
motion will be granted, and the docketing fee will be waived.
Prior to considering the merits of an appeal, this Court must first determine if it has
appellate jurisdiction over the matter. VI. Gov’t Hosp. and Health Facilities Corp. v. Gov’t, 50
V.I. 276, 279 (V.I. 2008). “This Court’s jurisdiction to review the Superior Court’s order is
governed by title 4, section 32(a) of the Virgin Islands Code, which provides that ‘[t]he Supreme
Court shall have jurisdiction over all appeals arising from final judgments, final decrees or final
orders of the Superior Court, or as otherwise provided by law.’ Section 32 embodies the final
judgment rule, which generally requires a party ‘to raise all claims of error in a single appeal
following final judgment on the merits.”’ Bryant v. People, 53 V.I. 395, 400 (V.I. 2010) (quoting
Enrietto v. Rogers Townsend & Thomas PC, 49 V.I. 311,315 (V.I. 2007)). “A final judgment,

E2.8

July 31,2020

Gumbs v. Harrigan, et al.
S. Ct. Civ. No. 2020-0041

O?

F

Order
Page 2 of 3

vet'

decision, or order is one that ends the litigation on the merits and leaves nothing to do but
execute the judgment.” VI. Gov’t Hosp. and Health at 279.
The order appealed does not appear to end the entire case. While it dismisses Appellant’s
case against Defendant, the Honorable Henry V. Carr, III and Defendant Superior Court of the Virgin
Islands with prejudice, Appellant’s claims against Tina Koopmans, Kelly Harrigan and University of
the Virgin Islands remain pending. Specifically, the order appealed gives Appellant 30 days to
address in writing why his complaint against Koopmans should not be dismissed because more than
two years have passed since Koopmans’ death without any party having moved to substitute a
personal representative for Koopmans. The order also gives Appellant 30 days to address in writing
why his complaint against Koopmans, Harrigan and University of the Virgin Islands should not be
dismissed for failure to submit proof of service. The Superior Court certified list of docket entries
shows that this is the last order issued. Therefore, the February 27, 2020 Order is not the final order
in this case. However, prior to dismissing this matter the Court will allow the parties to address
whether this Court has jurisdiction over the February 27, 2020 order. The Court will also stay the
Scheduling Order in this matter pending its determination as to whether it has jurisdiction over this
1

appeal. Accordingly, the premises considered, it is hereby
ORDERED that Appellant’s motion to proceed In Forma Pauperis is GRANTED; and it
is further

Should the Court determine that it has jurisdiction over this appeal, the Court will set a
1
new deadline for Appellant to file his brief and the joint appendix and will address Appellant's
motion for leave to file separate appendices.

EW

Gumbs v. Harrigan, et ah
S. Ct. Civ. No. 2020-0041

July 31,2020

F

Order
Page 3 of3

ORDERED that within fourteen (14) days of the date of entry of this Order the parties
SHALL FILE briefs, which may be in the form of a letter in which the parties SHALL ONLY
ADDRESS whether this Court has appellate jurisdiction over the order appealed; and it is further
ORDERED that the Scheduling Order issued on July 8, 2020 is STAYED pending further
order; and it is further
ORDERED that copies of this Order shall be distributed to the parties.
SO ORDERED this 31st day of July, 2020

RHYS S. HODGE
Chief Justice
ATTEST:
VERONICA J. HANDY, ESQ.
Clerk of the Court
By: /s/ Jessica Grant
Deputy Clerk II
Dated: Julv3L 2020
Copies to:
Justices of the Supreme Court
Calvin Gumbs, III, pro se
Marie E. Thomas Griffith, Esq.
Samuel H. Hall, Jr., Esq.
Paul L. Gimenez, Esq.
Veronica J. Handy, Esq., Clerk of the Supreme Court
Supreme Court Law Clerks
Supreme Court Secretaries
Order Book

E30

m THE SUPREME COURT OF THE VIRGIN ISLANDS
DIVISION OF ST, THOMAS AND ST, JOHN
Calvin Grabs; H,

)
)
)
)
)
}
>
}

Appeflant/Pfamtiff,
vs.

Kelly Hamgan,.
Tina M. Koopmans. (dec,);
WJOTERSITY OF THE VIRGIN ISLANDS,

Cti- Appell eeGo-Defendamt/Cri-Respondent,)
)
)
)
)

and

Henry V., Carr,. Ill, Magistrate,
SUPERIOR COURT OF THE VIRGIN ISLANDS. )
SMALL CLAIMS DIVISION,
3

)

Co-AppeLlee/Co-Defendant/Co-Respondent)

S* CL No.

2020-0041

Re: Super a. No. ST-17-CV-342
ACTION FOR:
Fraud/Mtsrepresentafjoia - Breach of
Coirtract/Carrfractuai OfeEgation,
Conspiracy to1 Commit Fraud*
Conduct Unbecoming, betsg judicial
(impropriety)' or professional.

)

MOTION FOR RECONSIDERATION OF ORDERfSJ FOR DISMISSAL FOR LACK OF
JURISDICTION AND GRANTING APPELLEE’S MOTION TO DISMISS,
COMES NOW, Appellant, Calvin. Grabs, H, submits this motion to reconsider this Court's
orders) [created om the 5th' of January,, 2021 but: placed on record on. March

2021] to grant

Appellee’s (Kelly Hamgan,, Tina M Koopmans (dec.),, and the UNIVERSITY OF THE VIRGIN
ISLANDS) motion to dismiss and. dismiss for lack: ofjurisdiction, stating as follows:

I.) That,, in this Court’ s own written words of said, order, and. pursuant to the Revised Organic
Act of 1954, this: Court has- appellate jurisdiction over “all appeals from foe decisions offe
courts ofthe Virgin Islands established by local law[.]” 48 U.S.C. | ItiL3a(d). Tide 4, section.
32(ai> offoe Virgin' Islands' Code vests this Court with,jurisdiction over “all appeals; smmg
from, final j udgments, final decrees, [ and]! final orders of foe Superior Court”. If this Court
does not feel it has jurisdiction of certain or any matters brought before it from, foe lower

E31

courts of this, territory, where is am appellant supposed to turn to m hopes, of establishing or
seeking some maimer ofjustice1 since this Court is the ONLY appellate court system of and
m this’ territory? It is the right of a citizen of this: territory and nation to seek justice*
whether for or against, as a matter of [constitutional] law (14th1 Amendment).

2> That: all parties: involved in' this ease were given, specific- instructions in this Court’s Jolly
31st* 20201 order,, that - ...foe parties SHALL FILE briefs, which may be: in. the fomt of a
letter ini which the: parties. SHALL ONLY ADDRESS whether tins Court has appellate
Jurisdiction over the order appealed;. .-.
The Appelant filed a brief., counsel for Appellee Henry V. Cair, MI, Magistrate and the
SUPERIOR. COURT OF THE VIRGIN ISLANDS, SMALL CLAIMS DIVISION filed a
letter. However, counsel1 for Appellee Kelly Marrigan, Tina M. Koopmarts (dec-.),, and the
UNIVERSITY' OF THE VIRGIN ISLANDS did neither,, instead filed a motion to dismiss
the1 case; something that this Court directly instructed the parties NOT to do. That: party
disregarded, this. Court’s rating but was rewarded by being granted the dismissal — how is
that allowed in foe manner ofjustice, instead of being sanctioned for that egregious and
direct violation? Appellant noticed the motion and: chose not to file a counter motion
simply because of the: direct order by this Court — in which foe parties: SHALL ONLY
ADDRESS whether this Court has appellate jurisdiction over foe order appealed;..,
This is: what foe Appellant is missing — how is one party allowed to disobey this Court’s
explicit, order and then get. its way by having its requested motion- approved and dismissal
granted? Again, foe Appellant had much to say about: the appellee’s motion to dismiss, ittcludmg foe brazen acclamation or Insinuation challenging foe Appellant’s receipt of order

£32

from the Superior Court dated ott February 27 2020 but delivered by a VX Marshall on
May 27*',, 2020, but the Appellant, chase not: to respond! to said appellee on that issue solely
because ofthe ord'er by this Court to - ONLY ADDRESS whether this Court has appellate
jurisdiction over the order appealed;...

Yet, the appellee, by intention or otherwise* which did sot submit the requested letter or
brief but, instead,, submitted a motion to dismiss, violating the exact order by this Court,
iL e., did not follow the order of the Supreme Court, was granted!, the dismissal!

WHETHER OR NOT this j urisdiction felt this case had. merit, it. is; still a civil right of a United
States; (state or territory) citizen to have due process, and my right to due process was infringed
upon.

FOR. THE REASONS STATED, I,, the Appelant, ask this court, for reconsideration tor the
order(s), in which a motion for dismissal was granted and a lack ofjurisdiction, was founded.
I wish the: Court, consider(s) the: submission of this motion on my behalf in this matter.

Respectfully submitted!,

Calvin Gumbs. B
Appellant

March 1G, 2021
Prepared by:

Calvin Gurribs, II

Page f 3

E33

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)
vs.

Kelly Harrigan, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the Virgin Islands
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

APPENDIX F
Calvin Gumbs, II
(Your Name)

Post Office Box 12013
(Address)

Saint Thomas, VI (US Virgin Islands) 00801
(City, State, Zip Code)

(740)79S-455R nr (740) 227 - 5621
(Phone Number)

APPENDIX F TABLE OF CONTENTS
2019 US Virgin Islands Code Title 4 - Judiciary - § 32. Jurisdiction

FI

2019 US Virgin Islands Code
Title 4 - Judiciary
Chapter 2 - Supreme Court of the Virgin Islands
Subchapter IIB - Officers of the Supreme Court and Administration of
the Court
§ 32. Jurisdiction
Universal Citation: V.L Code tit 4, § 32 (2019)
■

(a) The Supreme Court shall have jurisdiction over all appeals arising from final
judgments, final decrees or final orders of the Superior Court, or as otherwise provided by
law.

■

(b) The Supreme Court shall have all inherent powers, including the power to issue all
writs necessary to the complete exercise of its duties and jurisdiction under the laws of the
Virgin Islands, including those orders necessary for the supervision of the judicial branch
of the Virgin Islands. The Supreme Court has supervisory jurisdiction over the Superior
Court of the Virgin Islands and all other courts of the judicial branch of the Virgin Islands.
The Supreme Court's authority also includes jurisdiction of original proceedings for
mandamus, prohibition, injunction, and similar remedies to protect its appellate
jurisdiction.

■

(c) Upon an appeal from a judgment or an order, the Supreme Court may reverse or affirm,
wholly or in part, or may modify the judgment or order appealed from, and each
interlocutory judgment or intermediate or other order that it is authorized to review, and as
to any or all of the parties. The Court shall thereupon render judgment of affirmance,
judgment of reversal and final judgment upon the right of any or all of the parties, or
judgment of modification thereon according to law, except where it may be necessary or
proper to grant a new trial or hearing, when it may grant a new trial or hearing.

■

(d) The Supreme Court may transfer any action or proceeding, except one over which it
has exclusive jurisdiction which does not depend upon the monetary amount sought, to
any other court within the judicial branch, having jurisdiction of the subject matter if such
other court has jurisdiction over the classes of persons named as parties. The Supreme
Court may transfer to itself any action or proceeding originated or pending in another local
court or administrative agency within the Territory upon a finding that such a transfer will
promote the administration ofjustice. The Supreme Court shall provide, by rules of court,
for the time and procedure for transfer and for review, including, among other things,
provisions for the time and procedure for transfer with instructions for review of all or part
of a decision, and for remand as improvidently granted.

■

(e) Regulation of bar. The Supreme Court has exclusive jurisdiction to regulate the
admission of persons to the practice of law and the discipline of persons admitted to the
practice of law.

FI

■

(f)

*

■

■

(1) The Superior Court shall subject to the approval of the Supreme Court adopt
the rules of court for the Superior Court of the Virgin Islands consistent with
section 21 (c) of the Revised Organic Act of the Virgin Islands.
(2) The Supreme Court shall adopt rules governing civil and criminal procedure,
evidence, judicial discipline, disability, ethics, admission to and governance of the
bar of the Virgin Islands, the administration of the judiciary and the practice and
procedure in the courts of the judicial branch of the Virgin Islands and other
matters ofjudicial administration.
(3 In carrying out the mandate of paragraph (2), the Chief Justice may appoint a
committee to recommend the adoption of rules consisting of two judges of the
Superior Court and at least two members of the Virgin Islands Bar Association.

F2

